<html>
<title> - AGENT ORANGE: WHAT EFFORTS ARE BEING MADE TO ADDRESS THE CONTINUING IMPACT OF DIOXIN IN VIETNAM?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  AGENT ORANGE: WHAT EFFORTS ARE BEING
                 MADE TO ADDRESS THE CONTINUING IMPACT
                         OF DIOXIN IN VIETNAM?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2009

                               __________

                           Serial No. 111-39

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-112                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Scot Marciel, Deputy Assistant Secretary and 
  Ambassador for ASEAN Affairs, Bureau of East Asian and Pacific 
  Affairs, U.S. Department of State..............................     9
Mr. Charles Bailey, Director, Special Initiative on Agent Orange/
  Dioxin, Ford Foundation........................................    20
Mr. Vo Quy, Professor, Centre for Natural Resources and 
  Environmental Studies (CRES), Vietnam National University, 
  Hanoi, Vietnam (Member, US-Vietnam Group on Agent Orange/
  Dioxin)........................................................    36
Ms. Mary Dolan-Hogrefe, Vice President and Senior Adviser, 
  National Organization on Disability (Member, US-Vietnam 
  Dialogue Group on Agent Orange/Dioxin and also Director of the 
  World Committee on Disability).................................    45
Mr. Rick Weidman, Executive Director for Policy & Government 
  Affairs, Vietnam Veterans of America (VVA).....................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
The Honorable Scot Marciel: Prepared statement...................    12
Mr. Charles Bailey: Prepared statement...........................    22
Mr. Vo Quy: Prepared statement...................................    38
Ms. Mary Dolan-Hogrefe: Prepared statement.......................    47
Mr. Rick Weidman: Prepared statement.............................    54

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    78
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois.....................................    79
His Excellency Ngo Quang Xuan, Vice Chairman, Foreign Relations 
  Committee, National Assembly of Vietnam (Co-Chair, US-Vietnam 
  Group on Agent Orange/Dioxin and also former Vietnamese 
  Ambassador to the United Nations): Statement...................    80
Ms. Mary Dolan-Hogrefe: Additional material......................    86
Mr. Rick Weidman: Additional material............................   106


  AGENT ORANGE: WHAT EFFORTS ARE BEING MADE TO ADDRESS THE CONTINUING 
                      IMPACT OF DIOXIN IN VIETNAM?

                              ----------                              


                         THURSDAY, JUNE 4, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:13 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee will now come to order.
    This is a hearing of the Foreign Affairs Subcommittee on 
Asia, the Pacific and the Global Environment.<greek-l>
    I certainly want to extend my personal welcome to our first 
witness, who came all the way from Vietnam. deg.
    <greek-l>But, before doing that,  deg.I do want to make a 
personal invitation to one of my distinguished colleagues and 
dear friend, not only as a historical point but certainly 
someone that we should all be proud in making America great. I 
would like to invite my dear friend and colleague representing 
his district in New Orleans in the State of Louisiana, 
Congressman Anh Cao, our first Vietnamese-American elected 
Member of Congress. I personally welcome him and want him to 
join us in this hearing.
    My colleague and ranking member from Illinois, Mr. 
Manzullo, is not here yet. He has asked me to go ahead and 
begin the hearing. I will open the hearing at this time with a 
statement.
    Last year, the subcommittee held a historic hearing with 
the US-Vietnam Dialogue Group and the Aspen Institute regarding 
our forgotten responsibility to the victims of Agent Orange. To 
my knowledge, this was the first time in the history of the 
U.S. Congress that a hearing was held on Agent Orange that 
included the views of our Vietnamese counterparts. And so today 
I thank the Dialogue Group for agreeing once more to update us 
on what efforts have been made to address the continuing impact 
of dioxin in Vietnam.
    This subject, though uncomfortable for some, is important 
to me. Because, in 1966, I joined the U.S. Army and was then 
deployed to Vietnam in 1967 where I served in Nha Trang as a 
young soldier at the height of the Tet Offensive.
    My younger brother, Tom, also served, as did hundreds of 
thousands of Americans at that time. None of us knew then what 
we know now. We did not know if we would come back in a body 
bag or live to return to see our own families. How my brother 
and I made it home, I do not know, but we did.
    About 2 years ago, for the first time in nearly 40 years, I 
returned to Vietnam in honor of those who did not. Although my 
brother passed away a couple of years ago, I wore his aloha 
shirt so he could return with me to Vietnam.
    Some 40 years later, Vietnam is not the same; neither is 
the United States. Today, it is the policy of the United States 
to normalize relations with Vietnam. In part, normalizing 
relations means coming to terms with our past; and I commend 
the US-Vietnam Dialogue Group on Agent Orange for openly 
discussing ways in which the U.S. Congress can be of help.
    As I noted in last year's hearing, it is estimated that 
from 1961 to 1971, the United States military sprayed more than 
11 million gallons of Agent Orange in Vietnam. Agent Orange was 
manufactured under Department of Defense contracts by several 
companies, including Dow Chemical and Monsanto. Dioxin, a toxic 
contaminant known to be one of the deadliest chemicals made by 
man, was an unwanted byproduct, and it is thought to be 
responsible for most of the medical problems associated with 
exposure to Agent Orange.
    According to the Congressional Research Service, and I 
quote, ``Vietnamese advocacy groups claim that there are over 3 
million Vietnamese suffering from serious health problems 
caused by exposure to the dioxin in Agent Orange.''
    CRS also reports that in 1995 ``a study of over 3,200 
Vietnamese nationals found average TEQ blood levels were nearly 
six times higher among the people from sprayed areas compared 
to people from unsprayed areas. Average breast milk levels were 
nearly four times higher, and average fat tissue levels were 
over 24 times higher. A separate study of blood dioxin levels 
of Danang residents reported TCDD concentrations of more than 
100 times globally accepted levels. Elevated TCDD 
concentrations were also found in blood samples of Bien Hoa 
residents.''
    Despite these findings, as CRS notes, and I quote, ``One 
area of continued disagreement between the U.S. and Vietnamese 
Governments is the attribution of medical conditions to 
exposure to Agent Orange-related dioxin. However, a list of 
conditions developed by the Vietnamese Red Cross and the U.S. 
Department of Veterans Affairs significantly overlap, 
indicating some agreement on the health effects.''
    Assessments of the environmental consequences of dioxin in 
Vietnam are ongoing, with serious contamination having been 
found at so-called hotspots or, more specifically, former 
military bases in Bien Hoa, Danang, Phu Cat, Nha Trang and at a 
former U.S. military base in the Aluoi Valley. Yet the U.S. 
State Department and the U.S. Agency for International 
Development, known as USAID, are only providing technical 
assistance and financial support for containment and 
remediation efforts in and around the Danang airport. And 
support is minimal, with less than $6 million appropriated for 
environmental remediation and health care assistance.
    In contrast, from 2003 to 2006, the United States 
appropriated $35.7 billion for Iraq reconstruction.
    For Germany, according to the Congressional Research 
Service, in constant 2005 dollars, the United States provided a 
total of $29.3 billion in assistance from 1946 to 1952, with 60 
percent in economic grants and nearly 30 percent in economic 
loans and the remainder in military aid.
    Total U.S. assistance for Japan from 1946 to 1952 was 
roughly $15.2 billion in 2005 dollars, with 77 percent in 
grants and 23 percent in loans.
    My question is: Why can't we do more for our U.S. veterans 
and the people of Vietnam? I believe that we could and we 
should, and this is why I am fully committed to doing 
everything I can to bring attention to this issue and make it 
right. As a Pacific Islander, I have a special affinity for the 
people of Vietnam and what it means to have been exposed to a 
horrifying poison.
    As a nation committed to lending a helping hand, and with 
America ready to lead once more, we can and must do better. I 
commend the US-Vietnam Dialogue Group for doing its part to 
strengthen our bilateral relations in an effort to put our past 
behind us and focus on a future of cooperation and promise.
    We are also joined this afternoon by one of my 
distinguished colleagues, a former Ambassador to the Federated 
States of Micronesia, my dear friend Congresswoman Diane Watson 
from California. Very, very glad to have you.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Watson. Thank you.
    Mr. Faleomavaega. And, also, we are especially pleased to 
be joined by my distinguished ranking member from the great 
State of Illinois and my good friend, Don Manzullo.
    Would you care to have an opening statement, sir?
    The gentleman waives his opening statement.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman, for holding 
this most important hearing.
    I am reminded of the time you went back to the North 
Pacific, and we attended a tribunal where they were 
interviewing people because of the effects of other kinds of 
agents that were used in the Pacific. It was a very, shall I 
say, deeply felt experience, a sad experience, because there 
were mutations generation later. So thank you for holding this 
hearing to address the continuing impact of dioxin or Agent 
Orange in Vietnam.
    We know that between 1961 and 1971, as part of the 
Operation Ranch Hand, 11-12 million gallons of Agent Orange 
were sprayed on South Vietnam. As a result of spraying the 
agent, between 1.2 million and 4.8 million Vietnamese were 
directly exposed to Agent Orange and other herbicides during 
the Vietnamese war.
    While the damages and effects of any war are devastating to 
locals and U.S. troops alike, I believe that now is the time to 
accurately assess the damage to the fullest extent possible and 
accept our responsibility in dealing with the aftermath of this 
act. Although Agent Orange has long been attached to 
uncertainty and controversy, I am pleased that we are seeing 
progress in our relationship with the Vietnamese Government and 
nongovernmental organizations. We refer to them as NGOs.
    The selfless effects of NGOs are to be commended. Included 
are the Ford Foundation, UNICEF, the United Nations Development 
Program, and the Bill and Melinda Gates Foundation, as well as 
Vietnamese NGOs and the guests on our panel today.
    Over the years, in speaking with the many Vietnamese 
veterans in my congressional district, exposure to Agent Orange 
has caused many health issues such as, but not limited to, 
Hodgkin's disease, respiratory cancer in the lungs, bronchus, 
Loronix in the trachea, as well as prostate cancer and type 2 
diabetes.
    Many Vietnam veterans in my district as well as around the 
country are still feeling the effects of Agent Orange some 40 
years later. So I am so pleased to see the selected panelists 
before us today, and I look forward to hearing their testimony. 
So I think----
    Mr. Faleomavaega. Will the gentlelady yield?
    Ms. Watson. Yes, I will yield.
    Mr. Faleomavaega. I think both of us have had a similar 
experience to the extent that we also visited the Northern 
Pacific----
    Ms. Watson. Yes.
    Mr. Faleomavaega [continuing]. And something else took 
place at the time when we conducted our nuclear testing in the 
Pacific. So Agent Orange and dioxin occurred in Vietnam, but 
there were also the effects of the nuclear testing where some 
300 Marshallese people, people of the Marshall Islands, were 
exposed to nuclear contamination. And to this day, they are 
still feeling the effects of what we did in conducting those 
tests. So that is another issue that I am sure the gentlelady 
and I would love to explore more and see what we can do to 
help.
    Ms. Watson. If you would yield--I still had zero, zero, 
zero on my time. But I just want to comment that it was an eye 
opener.
    I had been out in that part of the world in Okinawa many 
years earlier. But to go into the area where we tested the 
nuclear bomb--and many of you might not know this, but the wind 
shifted. And the plan was to test over open water space, not 
over land. And because the wind shifted, it took that waste 
over land. And those islands that we visited and looked at, 
that 18-inch of topsoil is still today nonworkable, not 
growable. Many people were returned to areas in those islands, 
and there is nothing growing. There is nothing to do. They put 
up housing. And we found, if you remember, that girls as young 
as 12 and 13 were pregnant, having babies. We went to the 
opening of a hospital over there.
    So there is a lot of work to be done in that area. I think 
this hearing is the beginning of us reviewing what still needs 
to be done, and I thank you so much.
    Mr. Faleomavaega. I thank the gentlelady.
    I might also note a very similar characteristic of the 
hospitals I visited in Vietnam where many of the children, the 
young people and even adults had defective birth conditions in 
the same way that the Marshallese women gave birth to jelly 
babies, deformed babies, as a result of the nuclear 
contamination. So the dioxin poison seems to give that same 
kind of medical problem. It is just a really terrible thing 
that I have seen.
    I thank the gentlelady.
    Now I would like to ask my good friend, the gentleman from 
Louisiana, for his opening statement.
    Mr. Cao. Thank you, Mr. Chairman.
    Before I begin, I would like to express my deep 
appreciation for your and the ranking member's concern for the 
welfare of the Vietnamese people.
    Being a native Vietnamese myself, I am also very concerned 
with the many health issues that are presently facing the 
Vietnamese people because of Agent Orange.
    According to the CRS reports that I have right in front of 
me, approximately 2.1 million to 4.8 million Vietnamese were 
directly exposed to Agent Orange; and a Vietnamese advocacy 
group claims there are over 3 million Vietnamese suffering from 
serious health problems caused by exposure to dioxin in Agent 
Orange.
    So, as you can see, Mr. Chairman, this is a serious issue 
that the Vietnamese people face. I believe that how the 
Vietnamese Government addresses this issue in connection with 
Agent Orange will show how they deal with the basic rights of 
the Vietnamese people in Vietnam and how they view their duty 
to the Vietnamese people.
    So I look forward to this hearing, and I appreciate your 
deep concern for the Vietnamese people and that you are holding 
this hearing. Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman for his statement. 
I think your presence, Congressman, gives a greater emphasis on 
my part and the part of my ranking member, Mr. Manzullo, and 
the fact that this is not a Democratic or a Republican issue, 
this is not a Vietnamese or an American issue--it is a human 
issue. I think this is something that we all ought to bear in 
mind regarding what happens in war. Things like this happen. 
And maybe we could have prevented a lot of these things from 
happening. In the course of our hearing today, I hope that we 
will get more data and information from some of our expert 
witnesses.
    [Discussion off record.]<greek-l>**Deleted from here to 
"Print on"**
    Because of the rules of the House--I have a very 
distinguished gentleman who currently chairs as the vice 
chairman of the Foreign Relations Committee. Procedurally, we 
are not able to question the gentleman, but he certainly--it is 
my privilege and high honor to invite the gentleman who 
currently serves as the vice chairman of the Foreign Relations 
Committee of the National Assembly of the Republic of Vietnam, 
His Excellency Ngo Quang Xuan.
    Ambassador Ngo Quang Xuan has conducted his studies--
undergraduate studies in Vietnam, received postgraduate 
degrees--I am sorry, I am not very good in French--but 
Lausanne, somewhere in Switzerland, I believe, and the 
Diplomatic Academy of, Moscow Russia; formerly served as 
Ambassador of Republic of Vietnam to the United Nations; 
involved in several international organizations and 
memberships; and now is currently the vice chairman of the 
Foreign Relations Committee of the National Assembly of the 
Republic of Vietnam.
    Sir, we are very, very happy to have you come and visit us 
here; and I would welcome your statement now before the 
committee.

  STATEMENT OF HIS EXCELLENCY NGO QUANG XUAN, VICE CHAIRMAN, 
 FOREIGN RELATIONS COMMITTEE, NATIONAL ASSEMBLY OF VIETNAM (CO-
   CHAIR, U.S.-VIETNAM GROUP ON AGENT ORANGE/DIOXIN AND ALSO 
      FORMER VIETNAMESE AMBASSADOR TO THE UNITED NATIONS)

    Mr. Xuan. Thank you very much, Mr. Chairman and members of 
the subcommittee, ladies and gentlemen.
    I have circulated my statement to you. Due to limited time, 
I wish to draw your attention to just a few points.
    First of all, I would like to extend my sincere thanks to 
Chairman Faleomavaega and the subcommittee for the opportunity 
to speak before you on our efforts to address the impact of 
Agent Orange/dioxin to the people and the environment of 
Vietnam, as well as the road ahead to complete this heavy task.
    I believe that following the outcomes of the first hearing 
of the subcommittee on Agent Orange in May, 2008, this hearing 
will provide more in-depth exchanges on ways and means to 
complete the task and will eventually lead to legislation and 
other official matters that will assist Vietnam to cope with 
the continuing impact of Agency Orange/dioxin in the time to 
come.
    Today, I speak before the subcommittee in the capacity as 
co-chair of the U.S.-Vietnam Dialogue Group on Agent Orange/
dioxin.
    As you may know, the Dialogue Group was set up in 2007 in 
the framework of track two with assistance from Ford 
Foundation's Special Initiative on Agent Orange/dioxin.
    I am honored to co-chair the Dialogue Group with Mr. Walter 
Issacson, former General Director of CNN Communication, 
President and CEO of the Aspen Institute.
    Now I wish to express my view on Vietnam-U.S. relations and 
the issue of Agent Orange/dioxin.
    Vietnam-U.S. relations have witnessed dramatic development 
since the mid-1990s following political normalization. Since 
the end of the war, major strides have been made in bilateral 
relations to enable the two countries to move forward on a 
range of issues and areas of difference.
    U.S. Trade with Vietnam grew rapidly between 2001 and 2007. 
Total bilateral trade between the two countries rose from $1.5 
billion to $12.5 billion. Vietnam has also increased its 
efforts to assist the United States to recover the remains of 
U.S. soldiers and civilians who died during the wartime. The 
two nations have also expanded their corporation on strategic 
and military issues.
    However, one major legacy of the war that remains 
unresolved is the impact of Agent Orange/dioxin on the people 
and the environment of Vietnam. For the last three decades, 
this issue has generally been pushed aside from discussion by 
other issues considered more important such as the negotiation 
on PNTR, WTO trade relations by two sides. Having those issues 
resolved, the issue of Agent Orange/dioxin has emerged as a 
regular topic in bilateral discussions in recent years. It is 
said that the relations between Vietnam and the United States 
will not become totally comprehensive unless Agent Orange is in 
mainstay of relationship.
    The increasing concern from Vietnamese people about the 
impact of Agent Orange in recent years has created more 
pressure on the Vietnamese Government to remove dioxin from the 
environment and to provide better care to people exposed to 
Agent Orange/dioxin.
    According to various estimates, the U.S. military sprayed 
approximately around 20 million gallons of Agent Orange over 
nearly 24.67 percent on Southern Vietnam territory between 1961 
and 1971. One scientific study estimated that around 4.8 
million Vietnamese were directly exposed to Agent Orange. Now I 
will--some efforts made in the field of Agent Orange in 
Vietnam.
    Since the 1990s, several constructions have been built by 
Ministry of National Defense of Vietnam to control the spread 
of dioxin in and around the military bases, including three 
hotspots in Da Nang Bien Hoa and Phu Cat. However, this project 
can only deal with a part of the whole dioxin-contaminated 
area.
    In 2006, the Vietnamese Government estimated the cost for 
the detoxification of Da Nang and Bien Hoa air bases in could 
reach $10 million.
    In 2008, the estimated cost for decontaminating the Da Nang 
air base was raised to $14 million.
    In 2007, several projects were carried out by Ministry of 
National Defense of Vietnam to prevent the spread of dioxin 
from heavy contaminated areas in the Da Nang air base with 
funds from the Ford Foundation. Similar projects are now being 
carried out at Phu Cat Air Base with 1.5 million U.S. dollars 
funded by the Czech Republic. Mangrove planting projects have 
also been carried out to rehabilitate forests which were 
totally or partially destroyed by herbicide dioxin.
    Thousands of victims, especially children with birth 
defects, have been nurtured and treated in peace villages, 
friendship villages, and centers for children with disabilities 
all over the country. Yet these supports only meet a small part 
of a very large and long-term of demand of Agent Orange/dioxin 
victims.
    Scientific research on the adverse impacts of Agent Orange 
to the environment of Vietnam and its people have been 
conducted with collaboration and support of scientists form 
Japan, Germany, Canada, Russia, et cetera. Humanitarian 
activities and contribution by organizations and individuals 
from Japan, Germany, Norway, England, and the United States for 
victims of Agent Orange and people with disabilities have also 
been carried out in recent years. Cooperation between Vietnam 
and the United States in the issue of Agent Orange began in 
2000, following the visit to Vietnam by President Bill Clinton.
    Vietnam has also received support from several U.S. NGOs to 
address the impact of Agent Orange, including the Ford 
Foundation, Vietnam Veterans of American Foundation, and some 
American friends. At the moment, the Ford Foundation is the 
largest international contributor of assistance to Vietnam's 
effort to clean up Agent Orange/dioxin. Through August, 2008, 
the Ford Foundation has made grants of about $8 million to 
Agency Orange/dioxin-related projects in Vietnam and has 
committed to grant more in the future.
    The total $6 million appropriation to Vietnam for 
environment remediation of dioxin-contaminated storage sites 
and to support health programs in communities near those sites 
was made twice, in 2007 and 2009. However, so far, there have 
been no further announcements about the utilization of even the 
first appropriation of $3 million in 2007. Some words about the 
U.S.-Vietnam Dialogue Group on Agent Orange/dioxin.
    In February, 2007, the Dialogue Group was established with 
funds from the Ford Foundation. The Dialogue Group seeks to 
draw attention to the range of human and environment needs 
related to Agent Orange/dioxin in Vietnam and to identify 
practical and effective fields in which donors can help to 
address those needs.
    In the last 2 years, the Dialogue Group has had four 
meetings. Its most recent meeting, the fourth meeting, was held 
just 2 days ago, on June 2nd, 2009, in Washington, DC, with 
participation of around 70 people representing political 
communities, think tanks, NGOs, and scientists. The meeting 
concluded with suggestions that the issue of Agent Orange/
dioxin should be put into the comprehensive U.S.-Vietnam 
bilateral relations and the overall environment issue in 
general and that advocacy to raise awareness of the United 
States and fully providing information on this issue should be 
done in a more practical way.
    The Dialogue Group is not a funding agency but seeks to 
identify funds and donors in five priority areas: Containing 
Dioxin at former air bases to prevent ongoing and future 
contamination; second, expanding services to people with 
disabilities, with particular attention to people in and around 
the affected area; third, establishing an international 
standard dioxin laboratory in Vietnam to help measure the 
extent of contamination and contribute to international 
research on Agent Orange; fourth, restoring landscape and other 
aspects of the environment affected by Agent Orange during the 
war in Vietnam; and the fifth, mainstreaming the issue of Agent 
Orange within the U.S. public and U.S. policy community.
    I go to the last point to complete the task: What should we 
do to address the impact of Agent Orange in Vietnam?
    Since the end of the war, despite difficulties, the 
Government and the people of Vietnam have been active in 
carrying out a number of researches on the impact of Agent 
Orange/dioxin to its environment and people, as well as 
provided health care and financial support for a large number 
of victims of Agent Orange/dioxin. In the fight with this war 
legacy, Vietnam has received valuable support and cooperation 
from international communities.
    In the last few years, cooperation between Vietnam and the 
United States on the issue of Agent Orange has encouraging 
progress. Yet this progress and cooperation is only on a very 
small scale compared with the very last long-term and costly 
demands needed to complete the task. Completing the task is a 
long-term process which certainly requires joint effort of both 
countries as well as increasingly partnership between public 
and private sector. To do this, I would propose some 
suggestions as follows:
    In the long run, the issue of Agent Orange should be put 
into the comprehensive U.S.-Vietnam relations. The bilateral 
relations between Vietnam and the United States cannot become 
totally comprehensive without a comprehensive and reasonable 
solution for the impact of Agent Orange/dioxin in Vietnam.
    A multiyear policy for cooperation should be developed. 
There should be a master plan or multiyear policy on Agent 
Orange/dioxin in Vietnam, including scientific research, 
environmental remediation, public awareness, and health care.
    In the immediate, public and private sector partnership 
should be further promoted. In the last few years, the private 
sector has been very active in the joint effort with the public 
sector to address the impact of Agent Orange in Vietnam. In 
recent years, nongovernmental organizations have contributed 
most of the funds to that effort.
    Fourth, speed up the reimbursement pace. It is appreciated 
that the U.S. Congress has twice agreed to allocate $6 million 
for the work of Agent Orange/dioxin in Vietnam. However, in 
reality, this budget does not yet reach those who need it. The 
decision to add $3 million to the budget of 2007, 2009 is a 
significant move made by the U.S. Congress. Therefore, to make 
this move not just a symbolic one, the speed of reimbursement 
should be soon pushed up.
    And the last one, promote various forms of regular dialogue 
and information exchanges between the two sides.
    Allow me to conclude my statement by welcoming the second 
hearing of the subcommittee as an important component on the 
long way to complete our tasks. Thank you again for inviting me 
and for convening this fruitful discussion. Thank you very 
much, Mr. Chairman.
    Mr. Faleomavaega. Thank you, Mr. Ambassador. And I do 
appreciate your coming all the way from Vietnam to join us in 
this hearing this afternoon. Thank you for your statement.
    [The prepared statement of Mr. Xuan follows:]
    ******** INSERT 1-1 **********Print Back On** deg.
    Mr. Faleomavaega. Our <greek-l>next deg.first witness is 
Deputy Assistant Secretary Scot Marciel.
    Secretary Marciel currently serves as the Deputy Assistant 
Secretary for the Bureau of East Asian and Pacific Affairs, and 
also serves as Ambassador to ASEAN.
    Mr. Marciel has been a career member of the Foreign Service 
and State Department since 1985. He served previously as 
director of the Department's Office of Maritime Southeast Asia, 
as director of the Office of Mainland Southeast Asia, and has 
had assignments in our Embassies in Vietnam, the Philippines, 
Hong Kong, Brazil and Turkey.
    A Californian, Mr. Marciel graduated from the University of 
California at Davis, and he earned a graduate degree from the 
Fletcher School of Law and Diplomacy.
    This is again a reunion with our good friend, Deputy 
Assistant Secretary Marciel, on this issue.
    Please proceed, sir.
    Mr. Marciel. I thank you very much, Chairman Faleomavaega.
    Mr. Faleomavaega. Is your mike on?
    Mr. Marciel. Yes, I think it is. Can you hear me?
    Mr. Faleomavaega. Pull it a little closer to you. I am hard 
of hearing these days. I don't know why.
    Mr. Marciel. Is this----
    Mr. Faleomavaega. Much better.
    Mr. Marciel. Is that okay?
    Mr. Faleomavaega. Much better.

   STATEMENT OF THE HONORABLE SCOT MARCIEL, DEPUTY ASSISTANT 
  SECRETARY AND AMBASSADOR FOR ASEAN AFFAIRS, BUREAU OF EAST 
      ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Marciel. Chairman Faleomavaega, Ranking Member 
Manzullo, and members of the subcommittee, thank you very much 
for inviting me to testify today on the topic of United States 
engagement with Vietnam on issues related to Agent Orange.
    Since I last testified before your subcommittee on this 
topic, just over a year ago--I believe it was May of last 
year--we have continued to make great strides in the U.S.-
Vietnam bilateral relationship. We are moving forward on a wide 
range of issues, and we discuss matters frankly, even those 
issues on which we don't agree.
    As a result of our closer ties, we have made significant 
gains in areas ranging from accounting for the remains of 
Americans lost during the Vietnam War, to development of 
bilateral trade liberalization, to greater cooperation on 
religious freedom measures. Our success in recovering and 
accounting for the remains of Americans lost in the Vietnam 
conflict, with 642 now repatriated to date, deserves special 
mention as an example of joint collaborative efforts.
    Recently, we have expanded our cooperation into new areas--
I think it is very important--including education, climate 
change, investment protection, and even military-to-military 
relations.
    We are implementing a foreign assistance program in Vietnam 
that is growing in both size and scope; and it is aimed at 
supporting economic reform and good governance, building a 
vibrant civil society, and improving health and security for 
the Vietnamese people.
    Our assistance includes programs to address humanitarian 
needs, including HIV/AIDS treatment and prevention, and support 
for those with disabilities, without regard to their cause. 
Since 1989, the United States has funded more than $44 million 
in programs in Vietnam to support people with disabilities. 
This includes significant contributions from the Leahy War 
Victims Fund.
    Agent Orange has long been a sensitive issue for both 
countries, as you mentioned, Mr. Chairman; and we have differed 
over the lasting impact of the defoliant on Vietnam. I am 
pleased to say that now we--meaning the United States and the 
Vietnamese Governments--are engaged in practical, constructive 
cooperation. Both the United States and Vietnam agree that the 
health of the Vietnamese people and the safety of the 
Vietnamese environment are vital for Vietnam's future. With the 
support of additional funds approved by Congress in Fiscal Year 
2007 and again in Fiscal Year 2009, we are moving ahead with 
collaborative efforts to help Vietnam address environmental 
contamination and related health concerns.
    If I could give you a brief update on our activities, the 
$3 million included in the Fiscal Year 2007 supplemental 
appropriations bill for ``environmental remediation and health 
activities'' at ``hotspots'' in Vietnam is central to our 
efforts to address environmental and health concerns.
    Out of the initial $3 million, $1 million has already been 
spent for health projects. We have utilized a total of $550,000 
of that $3 million for support costs, staffing to implement the 
dioxin/Agent Orange program through Fiscal Year 2010 and 
invitational travel to Vietnam for U.S. experts in dioxin 
remediation.
    The remaining $1.45 million has been budgeted for 
environmental containment and remediation activities. We 
focused our efforts on the Danang hot spot, and that is because 
the Government of Vietnam has asked us to focus our assistance 
there.
    In September, 2008--so since I last appeared before you--
USAID entered into 3-year cooperative agreements with three 
U.S. private voluntary organizations: Save the Children 
Foundation, East Meets West Foundation, and Vietnam Assistance 
for the Handicapped. Under these agreements, people with 
disabilities in the Danang area are provided with health and 
rehabilitation services and livelihood development support.
    We are pleased to have a Vietnamese government 
representative on the panel that selected those projects. 
Already, these organizations have provided a valuable service 
to the disabled community in Danang.
    For example, Vietnam Assistance for the Handicapped 
sponsored training for 22 medical professionals in Danang by 
U.S.-based physicians and provided rehabilitation services to 
66 disabled people, including nine corrective surgeries. The 
East Meets West Foundation conducted a baseline needs 
assessment for the disabled population of the greater Danang 
area and provided medical screening for more than 3,000 people. 
Save the Children Foundation sponsored the first job fair in 
Danang to include people with disabilities, and I am pleased to 
note that 20 of the 72 disabled participants received immediate 
employment offers. In addition, our partners are working 
closely with local authorities to develop an integrated action 
plan to support people with disabilities in Danang.
    We are also moving forward on environmental projects. Our 
Embassy in Hanoi is working closely with the Government of 
Vietnam to finalize an environmental remediation program for 
dioxin hotspots at the Danang airport. With support from the 
U.S. Environmental Protection Agency and building upon 
important Ford Foundation initiatives, USAID has worked in 
close coordination with the Vietnamese Government and other 
donors to design and implement a comprehensive remediation 
program.
    As a first step, USAID has developed a project focusing on 
an environmental assessment and environmentally sound design 
and planning for containment of dioxin at the Danang airport. I 
am happy to report that the procurement process for these 
efforts is under way.
    We are very pleased that an additional $3 million in Fiscal 
Year 2009 funding is now available for Agent Orange activities 
in Vietnam. I can tell you how we plan to use these. We plan to 
use approximately $1 million of this funding for further 
support for environmental health activities and $2 million for 
environmental remediation efforts. We will also continue to 
consult closely with our Vietnamese partners as we do this.
    In conclusion, the Governments of the United States and 
Vietnam have cooperated on the issue of dioxin contamination 
since 2001. Our aim has been to strengthen the scientific 
capacity and infrastructure of Vietnam's research institutions 
and to improve the ability of the Vietnamese authorities to 
protect the environment and promote public health for future 
generations.
    Our collaboration with Vietnam on Agent Orange/dioxin 
issues extends well beyond the government-to-government dialog. 
This week's meeting of the US-Vietnam Dialogue Group on Agent 
Orange/Dioxin, and the Fourth Annual U.S.-Vietnam Joint 
Advisory Committee meeting, which is planned for September in 
Hanoi, are prime examples of the partnerships that are at the 
heart of our efforts.
    As we move forward, we will work hard to ensure U.S. 
Government assistance complements an open and effective 
approach to addressing outstanding concerns related to Agent 
Orange.
    Chairman, thank you for giving me the opportunity to make 
opening remarks; and, of course, I am pleased to answer any 
questions. Thank you.
    Mr. Faleomavaega. Thank you, Mr. Secretary.
    [The prepared statement of Mr. Marciel 
follows:]<greek-l>Scot Marciel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I would like to invite the gentlelady 
from California for questions.
    I will start. Okay.
    Well, Mr. Secretary, not only is this a reunion but a 
collaboration of the time that, yes, we did conduct a hearing--
the first of its kind, I believe, ever in the history of the 
Congress--and this was last year in May. I guess that has given 
us an opportunity for 1 whole year now since we met last, and I 
do appreciate some of the activities and the conduct on the 
part of our State Department, our Government in addressing the 
issues that we had discussed in May of last year.
    As I recall, I think there was a distinct question whether 
or not the United States has any liability for the problems 
caused by the usage of Agent Orange and dioxin at the time of 
the war in Vietnam; and I believe the response from your 
lawyers or legal department was you have no legal 
responsibility or liability on this issue.
    I believe I also then raised the issue, if we did not have 
the legal liability, do you think perhaps that we should have a 
moral responsibility since we are the ones who used the dioxin 
poison during the war?
    What I am trying to get at, Mr. Secretary--and I do 
appreciate, as you said, all the NGOs in the organization, the 
Ford Foundation, the Dialogue, even EPA's involvement. I am 
trying to figure if there is some way that we could put a 
little more zip into the whole process for 1 whole year. I 
appreciate you have done all that you could under the 
constraints that you have been under, but I wanted to ask you, 
could there be more that we could do as a government for these 
people?
    I am not an expert on dioxin, but I am curious--maybe this 
is something that I will ask our other witnesses--what do you 
consider to be a reasonable amount of resources that we should 
provide to address this issue of dioxin and the remediation of 
the environment?
    I am told that we have all the different numbers. I had a 
meeting this morning with the Secretary of Veterans Affairs, 
General Eric Shinseki. He admitted to the so-called scientific 
method we have applied as to whether or not dioxin also 
affected our men and women in the military. And we really 
cannot confirm scientifically if our men and women were exposed 
to dioxin, especially those who made the distribution, and 
carried the gallons around the military bases. I happened to be 
stationed in Nha Trang, one of our military air bases in 
Vietnam.
    Has there been any conduct or any discussion or dialogue 
with the new administration since it came into office in 
January? Has this issue been discussed by the administration?
    Mr. Marciel. Thank you, Mr. Chairman. I will try to address 
your questions.
    In terms of State Department and the question of Agent 
Orange/dioxin, there have been discussions certainly in the 
East Asian Pacific Bureau with our USAID colleagues and on how 
best to move forward and continue this program. I don't know, 
to be honest, if there have been broader discussions maybe in 
other departments in the administration.
    In terms of cost and resources involved, one of the reasons 
I became a diplomat is because I wasn't smart enough to do the 
science in high school and college. I won't try to comment on 
the scientific part, because I don't have that expertise.
    I would say maybe a couple of things have guided us here. 
You mentioned the point about no legal liability. My 
understanding is it is very difficult to determine, if people 
have health problems in Vietnam or disabilities, what was the 
cause--was it caused by Agent Orange or was it caused by 
something else? Rather than try to figure that out, what we 
have decided to do is let's see if we can help people who need 
help. If it wasn't caused by Agent Orange, it was caused by 
something else, that is okay. These are people who still need 
help.
    I think everywhere around the world we try to help people, 
and certainly part of our relationship with Vietnam has been to 
try to help people. Our assistance to Vietnam total now is a 
little over $100 million a year. A very large percentage of 
that goes toward health. It is not necessarily because of Agent 
Orange, but it is certainly something we are pleased to do.
    My understanding is there have been no good estimates of 
what the total cost of remediation, environmental remediation 
would be or certainly for dealing with all the health problems. 
What we have been doing, as I mentioned, is working with NGOs 
but also other partners. Certainly the Government of Vietnam, 
the U.N., UNDP, and other governments, including, I believe, 
the Czech Republic, have all been active. So it is very much a 
multilateral effort now that we are pleased to be a part of.
    And I think there is more we can do. I can't put a number 
on it, both because I don't actually have the expertise but 
also given the budget realities. But certainly we are pleased 
to continue to do what we are doing. And I think we are in a 
position where the program is accelerating. A little bit slow 
starting up in some ways, but now we are accelerating.
    Thank you.
    Mr. Faleomavaega. In fairness to you, Mr. Secretary, and 
the State Department, I realize it wasn't the State Department 
that administered Agent Orange. It was the Department of 
Defense. And I do have every intention of calling the 
appropriate officials from the Department of Defense who should 
have all the data and information on how the whole process came 
into being, not only among the military bases, but the 
information that has also been received recently that it wasn't 
just the military bases, but all over Vietnam.
    And the real sad thing about this situation, Mr. Secretary, 
is that it was intended to be used to fight the enemy, the 
North Vietnamese. But the people most affected by this were the 
South Vietnamese, our own friends. It wasn't just the North 
Vietnamese Army that we were trying to expose or in some way to 
defeat in our efforts in fighting the war, but a great number 
of people were affected by this, not only our soldiers but the 
South Vietnamese people, who were supposed to be the ones that 
we were to defend and to protect.
    As I said, in fairness to you, I have several questions I 
wanted to pose in terms of how the Department of Defense went 
about doing this in connection with several of our major 
chemical corporations or companies that created the Agent 
Orange compound, including this dioxin. And I think this is 
where things really get a little more sensitive. Knowing if 
dioxin was contained in this compound, why did we continue 
using it?
    It didn't just cause deforestation but also tremendous harm 
to human beings. I like to think if there is an herbicide or a 
pesticide, it is not supposed to have an impact on human 
beings, but just to cause problems to trees and shrubs. How 
were we able to justify using this chemical compound? And if--
--
    Diane, do you have any questions?
    Ms. Watson. I was tracking the information on the--I guess 
it was $3 million for the remediation. And I know that without 
a scientific background you don't have that information at 
hand. But what I would like to know, Mr. Chairman, and from Mr. 
Marciel, if you could, when that information is available, let 
us know how these funds have been used. And if you could 
provide us the detailed information on how they are--to what 
extent these grants have achieved their expected results. And 
what were the hotspots, and have they gone into those hotspots, 
and to analyze the affect of dioxin over these years.
    So if we could get that feedback, we would have a clearer 
picture as to how we are aiding the Vietnamese and are we 
receiving the right results. It has been too long, and I think 
we ought to stand up to our responsibility and have this 
information. So if you can get back to us in writing once it is 
available, we would appreciate it
    Mr. Marciel. I certainly would be pleased to do that.
    I could, just briefly, maybe note that we have spent $1.5 
million of the $3 million from Fiscal Year 2007. And $1 million 
of that was for health in the Danang area and $500,000 for some 
support costs and staffing and invitational travel. And the 
other $1.5 million out of that is for environmental containment 
and remediation planning at Danang Airport, and that 
procurement process is under way.
    In terms of hotspots, we have focused, for environmental 
remediation, on Danang as one of three hotspots, meaning areas 
where dioxin was stored, where Agent Orange was stored. And 
that decision was made in consultation with our Vietnamese 
colleagues, who asked us to focus on Danang.
    But I will get back to you with a fuller answer in writing.
    Ms. Watson. That would be good.
    [The information referred to follows:]
 Written Response Received from the Honorable Scot Marciel to Question 
       Asked During the Hearing by the Honorable Diane E. Watson
    With the support of funds approved by Congress in FY 2007 and FY 
2009, we are working collaboratively with the Government of Vietnam to 
address the environmental and health issues related to dioxin in 
Vietnam. The $3 million included in the FY 2007 supplemental 
appropriations bill for ``environmental remediation and health 
activities'' at ``hot spots'' in Vietnam is central to our efforts. Out 
of the initial $3 million, $1 million was expended for health projects. 
In September 2008, after consulting with the Government of Vietnam, 
USAID entered into three-year cooperative agreements with Save the 
Children, East Meets West Foundation, and Vietnam Assistance for the 
Handicapped for health programs for people with disabilities in the 
Danang area. Under these agreements, the three organizations provide 
health and rehabilitation services and livelihood development support. 
We have already seen concrete results as our implementing partners have 
already provided valuable services to the disabled community in Danang. 
Vietnam Assistance for the Handicapped sponsored training for 22 
medical professionals in Danang by U.S.-based physicians and provided 
rehabilitation services to 66 disabled people, including nine 
corrective surgeries. The organization East Meets West Foundation 
conducted a baseline needs assessment for the disabled population of 
the greater Danang area and provided medical screening for more than 
3,000 people. Save the Children sponsored the first job fair in Danang 
to include people with disabilities. Of the 72 disabled participants, 
20 received immediate offers of employment.
    In addition to the health projects, we also utilized a total of 
$550,000 for staffing to implement the Dioxin/Agent Orange program 
through FY 2010, invitational travel to Vietnam for U.S. experts in 
dioxin remediation, and support costs. The remaining $1.45 million has 
been budgeted for environmental containment and remediation activities. 
Our Embassy in Hanoi is leading a coordinated effort with the 
Government of Vietnam to develop an environmental remediation program 
for the dioxin hotspot at the Danang Airport. With support from the 
U.S. Environmental Protection Agency and building upon important Ford 
Foundation initiatives, USAID has worked in close coordination with the 
Government of Vietnam and other donors to design and implement a 
comprehensive remediation program.
    Also, an additional $3 million in FY 2009 funding is available for 
Agent Orange/dioxin activities in Vietnam. We plan to use approximately 
$1 million of the funding for environmental health activities with the 
remaining $2 million devoted to environmental remediation.
    Regarding ``hot spots,'' in June 2006 the U.S.-Vietnam Joint 
Advisory Committee, a bilateral forum for high-level scientific 
dialogue, identified three priority ``hotspots'' or former U.S. bases 
where Agent Orange was loaded, stored, and transferred: Danang, Bien 
Hoa, and Phu Cat. We have focused our efforts on the Danang 
``hotspot,'' as the Government of Vietnam has requested assistance from 
the United States there.
    On the effects of dioxin, the environmental effects that are well-
established include defoliation and a host of adverse effects on a wide 
range of fish, birds, and mammals due to the contaminants. However, 
scientific research to date in Vietnam has not been comprehensive 
enough to draw accurate conclusions about environmental consequences of 
dioxin contamination.
    Few independent scientific studies have been conducted in Vietnam 
to assess the possible health effects of dioxin on the local 
population. The lack of validated scientific data and critical 
scientific review make it impossible to estimate accurately the number 
of actual or potentially-affected people or the extent of related 
health effects.

    Mr. Faleomavaega. And, without objection, your statement, 
and the statement also of Ambassador Xuan, will be made a part 
of the record.
    And, again, Mr. Secretary, thank you for coming here this 
afternoon.
    Mr. Marciel. Thank you.
    Mr. Faleomavaega. Our next panel of witnesses, if we could 
have our friends here: Mr. Charles Bailey; Mr. Vo Quy; Ms. Mary 
Dolan-Hogrefe; and Mr. Rick Weidman.
    Mr. Charles Bailey has worked in Africa and Asia as a Ford 
Foundation grant-maker for over 30 years. In 1997, he moved to 
Hanoi, where he worked as a Ford Foundation representative for 
Vietnam and Thailand until 2 years ago. In his 10 years heading 
the office in Vietnam, the Ford Foundation approved some $90 
million in grants in the fields of economic development, arts 
and culture, higher education, and international relations.
    In 1998, he began exploring ways to address the Agent 
Orange/dioxin legacy of the Vietnam War. Since October 2007, 
Mr. Bailey has continued his work as the director of the Ford 
Foundation Special Initiative on Agent Orange/Dioxin based in 
New York City.
    As a graduate of Swarthmore College, he joined the Peace 
Corps and went to Nepal. He currently holds a master's degree 
in public policy from the Woodrow Wilson School and a doctorate 
from Cornell University.
    Dr. Vo Quy holds a doctorate degree from the State 
University of Moscow and a bachelor's from the University of 
Vietnam. He is a teacher at the university level. I have such 
an extensive resume of Professor Quy, and I really, really 
appreciate, again, his coming all the way from Vietnam to join 
us this afternoon.
    Professor Quy conducted several research projects involving 
the investigations of the fauna and the flora of northern 
Vietnam. He conducted research on the long-term effects of 
herbicides used during the war on the environment and on living 
resources in South Vietnam as well.
    Chairman of various organizations and committees dealing 
with environmental issues, he has written 16 books and more 
than 100 papers on ornithology, sustainable use of natural 
resources, conservation of nature and wildlife, conservation of 
the environment, biodiversity and sustainable development. This 
gentleman comes well-prepared all the way from Vietnam to help 
us this afternoon.
    Ms. Mary Dolan-Hogrefe joined the National Organization on 
Disability in 1995 and served as vice president and senior 
advisor to the National Organization on Disability. Since 1995, 
she has been in charge of the National Organization of 
Disability's highly regarded survey research program executed 
by the Harris Poll.
    Mary served in various capacities--so many, my gosh. She 
also served as a staff member for Congressman Norman Lent. Two 
years ago, Mary was named to the US-Vietnam Dialogue Group on 
Agent Orange/Dioxin convened by the Ford Foundation and has 
visited Vietnam several times.
    She holds a master's degree in international relations from 
the University of Denver and a bachelor's from American 
University.
    Richard Weidman serves as executive director for policy and 
government affairs on the national staff of Vietnam Veterans of 
America. As such, he is the primary spokesman for Vietnam 
Veterans of America here in Washington, DC. And as a veteran 
himself, he was a medical corpsman during the Vietnam War, with 
service in Company C, 23rd Medical Group, AMERICAL division, in 
I Corps in 1969.
    I was in II Corps, Mr. Weidman. Cheers.
    Mr. Weidman also served as a consultant on legislative 
affairs to the National Coalition for Homeless Veterans. Mr. 
Weidman is a graduate of Colgate University and did graduate 
study at the University of Vermont.
    Lady and gentlemen, thank you so much for being with us.
    Mr. Bailey, could you start us off?

 STATEMENT OF MR. CHARLES BAILEY, DIRECTOR, SPECIAL INITIATIVE 
            ON AGENT ORANGE/DIOXIN, FORD FOUNDATION

    Mr. Bailey. Chairman Faleomavaega and members of the 
Subcommittee on Asia, the Pacific, and the Global Environment, 
thank you very much for this opportunity to appear before you 
today. I am Charles Bailey, director of the Special Initiative 
on Agent Orange/Dioxin at the Ford Foundation.
    The Ford Foundation is an independent, nonprofit, 
nongovernmental organization. And since 2000, the Foundation 
has contributed $9.4 million to begin to address the sensitive 
international and humanitarian issues of the Agent Orange/
dioxin legacy, the subject of today's hearing. This issue 
touches many lives, not only Vietnamese but American Vietnam 
veterans and their families, as well.
    This is a challenging topic, but there is promising news. 
These problems can now be addressed. Diverse initiatives and 
efforts have contributed to a new spirit of cooperation between 
the United States and Vietnam.
    The Ford Foundation has taken a leadership role in the 
philanthropic community on the impact of dioxin on post-war 
Vietnam. We are seeking to increase awareness and resources 
around a humanitarian agenda. Our role as a neutral convener, 
broker, and grant-maker has produced several immediate results.
    First, Vietnamese agencies and their partners are 
delivering enhanced services in health, education, and 
employment to children and young adults with disabilities, 
particularly disabilities linked to exposure to dioxin.
    Second, the threat to public health has been sharply 
reduced in neighborhoods near the airport in Danang. And health 
authorities in Bien Hoa have educated citizens on simple 
measures to ensure food safety.
    Third, rural development officials have devised ways to 
reforest mountains denuded by Agent Orange, with help from 
Vietnam National University-Hanoi.
    Fourth, three Vietnamese who completed master's in social 
work in the United States are back in Vietnam strengthening the 
services local NGOs provide to groups of young adults with 
disabilities.
    Fifth, on May 18th, the Government of Vietnam launched a 3-
year, $6.75 million project to create Southeast Asia's first 
high-resolution dioxin testing laboratory. The Bill and Melinda 
Gates Foundation and the Atlantic Philanthropies are providing 
$5.4 million toward the project. The Ford Foundation brokered 
the initial discussions.
    And six, we have funded or otherwise contributed to the set 
of key studies referenced in my written statement.
    In 2007, the US-Vietnam Dialogue Group on Agent Orange/
Dioxin was established with funds from the Ford Foundation. 
This group brings together policy analysts, scientists, 
business leaders, and others from both countries to rally 
support around five priorities listed in my statement.
    The Ford Foundation is also working with both governments 
on dioxin remediation at Danang Airport. This began with 
measurement of dioxin levels and construction of interim 
containment measures. The U.S. EPA and agencies of Vietnam's 
Government last week began field-testing a promising 
bioremediation technology developed by the Vietnamese. 
Foundation support for these measures at the Danang Airport 
totals $1.4 million.
    A problem that was too sensitive to broach is now the focus 
of multiple and diverse donors; nevertheless, much more needs 
to be done. Despite progress relative to the pre-2006 period, 
donor funding commitments remain short-term and fragile.
    Mr. Chairman, environmental remediation has proved to be 
the most feasible starting point for the two governments to 
work together on the legacy of Agent Orange. I am pleased to 
report that by the end of this year we will have enough 
information in hand to be able to proceed to destroy the dioxin 
at Danang. The cost estimates to remediate Danang and the other 
two major hotspots at Bien Hoa and Phu Cat are expected to be 
approximately $50 million to $60 million.
    On the health side, however, the issue is rather more 
complex. The solutions here will require a longer-term vision 
and an even stronger partnership between the United States and 
Vietnam. We will need to engage larger numbers of Americans to 
resolve this issue. And it will require involving younger 
generations of Americans and Vietnamese, who will build on 
recent successes, to devise and carry out solutions that will 
be required.
    The funds which the U.S. Government has allocated so far 
are an important beginning. We have an opportunity now to 
create a path for a longer-term strategy with multiyear funding 
to support it. NGOs and a wide variety of donors were able to 
create momentum, but now the scale and the scope of the 
revealed needs are such that only governments can address them 
comprehensively. The main task--reaching every citizen in need 
and sustaining programs over time--will require the reach and 
the scale of government.
    We have the chance now to shorten the long human shadows of 
war and address the needs of both American and Vietnamese 
families and communities. Thank you for your interest in our 
work on this issue.
    [The prepared statement of Mr. Bailey 
follows:]<greek-l>Charles Bailey deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Bailey.
    Professor Quy?

    STATEMENT OF MR. VO QUY, PROFESSOR, CENTRE FOR NATURAL 
 RESOURCES AND ENVIRONMENTAL STUDIES (CRES), VIETNAM NATIONAL 
 UNIVERSITY, HANOI, VIETNAM (MEMBER, US-VIETNAM GROUP ON AGENT 
                         ORANGE/DIOXIN)

    Mr. Quy. Mr. Chairman, Congress Members, ladies and 
gentlemen, first of all, I would like to express my sincere 
thanks to Chairman Faleomavega and the subcommittee for the 
opportunity to testify before you on the impact of Agent 
Orange/dioxin on the environment in Vietnam.
    The military attacks on the environment by using the toxic 
chemicals resulted not only in serious health effects, but had 
an immediate and long-term impact on the soil, nutrient 
balance, hydrological regimes, plants, animals, and perhaps 
even the climate of Vietnam and the region.
    Nearly four decades later, many of the affected ecosystems 
have not recovered. The long-term consequences include loss of 
ecosystems and biological diversity, economic stagnation, 
severe constraints on human development, poverty, malnutrition, 
disease, and other socioeconomic problems.
    More than 2 million hectares of forest were destroyed by 
herbicides during the war, including 150,000 hectares of 
mangroves, 130,000 hectares of Melaleuca Forest in the Mekong 
Delta, and many hundreds of thousands of hectares of inland 
dense jungle.
    The U.S. toxic chemicals have changed the ecological system 
on a large area, leading to serious degradation, turning an 
abundant ecological system into a degraded and ragged one, and, 
finally, seriously affecting human beings.
    The destruction of forests by toxic chemicals badly 
affected 28 river basins in the center of Vietnam. Over the 
past years, floods have destroyed these river basins, leading 
to great human and material losses.
    Some 366 kilograms of dioxin were sprayed over the 
landscape. Even today, the concentration of dioxin is still at 
a very high level in the soil of most extensively affected 
areas. Studies in some hotspots, such as A So area and the 
Danang and Bien Hoa Airbase, show that dioxin contamination 
continue to contaminate people living in these areas.
    We can say that war does not end when the bombs have 
stopped falling and the fighting has finished. Its devastating 
aftermath continues long after on the land and in the minds and 
bodies of people.
    The rehabilitation of forests destroyed by toxic chemicals 
is an urgent and difficult task and a costly and resource-
consuming process. By doing so, we hope to re-establish the 
ecological balance in Vietnam to preserve its biodiversity, to 
do our part in delaying global warming, and, most importantly, 
to reduce the hard and miserable life that inhabitants of the 
area have been suffering.
    To grow one or two trees is very easy, but to plant 
thousands of hectares of forests is not simple, especially 
given the fact that the soil has become far less fertile. 
Nowadays, we have made some effort to re-green Agent Orange/
dioxin-ravaged areas, but much more remains to be done, and our 
resources are very limited.
    In conclusion, we can say that alteration of the Earth's 
ecosphere is part of an ongoing process that is increasingly 
influenced by human activities, of which warfare is among the 
most destructive. However, the chemical war conducted by the 
United States in the south of Vietnam has been the worst yet of 
all of its kind. And its impact on the environment and human 
beings is unprecedented in the history of humankind. Its tragic 
consequences persist even today and will continue for 
generations to come. And the poor, who depend most directly on 
natural resources, suffer the most from it.
    Restoration of the war-ravaged environment is a matter of 
particular urgency, and dioxin-contaminated hotspots need to be 
cleaned up urgently. The Government and the people of Vietnam 
have undertaken a number of activities to overcome the 
consequences of Agent Orange. However, the efforts made can 
only meet a part of the huge and complicated demands raised by 
the toxic chemical dioxin-related consequences in Vietnam.
    In recent years, U.S. Government and some NGOs from the 
United States have supported Vietnam in research and in 
overcoming the consequences of Agent Orange/dioxin. We highly 
appreciate this willingness and activities.
    I hope that this hearing on the Agent Orange issue convened 
by the Subcommittee on Asia, the Pacific, and Global 
Environment will provide the U.S. Congress and the United 
States public with a better understanding of the severity of 
damage of the toxic chemical used by the U.S. Army during the 
war in Vietnam on the environment and the entire Vietnamese 
people, and call upon their responsibility and humanity to help 
the Vietnamese people to recover the scar of this tragedy in 
order to drive away the ``last ghost of war'' within our two 
countries, the United States and Vietnam. Some good seeds have 
been sown and are growing well, but a huge garden is waiting 
for our further work.
    Thank you for giving me the opportunity to appear before 
all of you today.
    [The prepared statement of Mr. Quy follows:]<greek-l>Vo 
Quy deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Quy.
    Our next witness, Ms. Mary Dolan-Hogrefe.

STATEMENT OF MS. MARY DOLAN-HOGREFE, VICE PRESIDENT AND SENIOR 
   ADVISER, NATIONAL ORGANIZATION ON DISABILITY (MEMBER, US-
VIETNAM DIALOGUE GROUP ON AGENT ORANGE/DIOXIN AND ALSO DIRECTOR 
             OF THE WORLD COMMITTEE ON DISABILITY)

    Ms. Dolan-Hogrefe. Thank you, Mr. Chairman and 
Congresswoman Watson. I am Mary Eileen Dolan-Hogrefe, and I 
serve as vice president and senior advisor of the National 
Organization on Disability, a nongovernmental disability 
organization founded in 1982. I would like to thank you for the 
invitation to testify at this important and timely hearing.
    And, Mr. Chairman, I ask for my full statement to be 
entered in the record.
    Mr. Faleomavaega. Without objection, all of your statements 
will be made part of the record.
    Ms. Dolan-Hogrefe. Thank you kindly.
    In December 2007, I was named a member of the US-Vietnam 
Dialogue Group on Agent Orange/Dioxin. The level of commitment 
on environmental and landscape issues has been notable: The 
dioxin at Danang Airbase is being contained and other hotspots 
identified. Funding is committed for a $15 million science lab 
to test soil for toxins. This all bodes well for cleaning up 
the environment.
    I applaud this focus of resources, yet as the disability 
person of the U.S. side of the Dialogue Group, I would like to 
see an increase in attention and commitment to disability 
issues from funders and the U.S. Government.
    There are several worthwhile projects on the ground in 
Vietnam that are helping to improve the human condition. I 
would like to highlight some areas where improvements are 
urgently needed, and to further ensure the sustainability of 
these programs that are under development.
    Number one, on-the-ground assessment and limits of 
community-based rehabilitation. There is no nationwide 
application of universal disability assessment standards, and 
there is a desperate lack of expertise in early detection and 
intervention for infants and toddlers with disabilities. The 
efforts now are largely implemented by people with limited to 
no specialized training. As for medically assessing disability, 
this is usually done by someone without sufficient training. 
This risks failure to identify nonapparent disabilities, as 
well as increases the chances of miscategorization of 
disabilities.
    The other concern is the implementation of therapy plans 
using the community-based rehabilitation model, CBR. CBR can be 
appropriate and, when applied accurately, has many positive 
effects. However, for CBR to be effective, sufficient training 
must be conducted with sufficient supervision.
    Number two, need for capacity building for people with 
disabilities and their organizations. The mantra in the 
disability community around the world is ``nothing about us 
without us.'' This needs to be the case in Vietnam, and I 
encourage the direction of resources toward empowering people 
with disabilities in growing their own organizations. The U.S. 
can contribute much here from our own disability community. We 
should also empower the Vietnamese community by providing 
technical assistance in disability data collection and survey 
research.
    Opportunities for economic self-sufficiency need be to 
improved and updated, such as vocational training. American 
businesses that invest in Vietnam and employ Vietnamese should 
follow the Americans with Disabilities Act when it comes to 
employment and accommodations.
    And finally, number three, there is a great need for 
professional knowledge exchange and capacity building for the 
medical and rehabilitation communities. Vietnam needs a 
comprehensive and coordinated approach for growing expertise in 
these fields, and the United States can provide much 
assistance.
    While it is true that the United States has been and 
continues to be a large humanitarian contributor to Vietnam, 
contributions from the U.S. need to be framed within the 
context of a greater moral responsibility and not just 
technical assistance and foreign aid.
    The U.S. and Vietnam are forever intertwined as a result of 
the war. The fates of American and Vietnamese veterans are also 
intertwined as a result of Agent Orange. We cannot and should 
not ignore this important historic nexus in which this 
disability crisis is playing out in Vietnam, nor should we 
ignore the continuing effects from Agent Orange on our U.S. 
veterans and their families.
    I was a primary contributor to a paper just published by 
the National Organization on Disability titled, ``U.S. Vietnam 
Veterans and Agent Orange: Understanding the Impact 40 Years 
Later.'' And I ask for the NOD paper to be part of the record, 
as well.<greek-l>**appendix**
    [The information referred to follows:]
    ******** COMMITTEE INSERT ******** deg.
    <greek-l>Ms. Dolan-Hogrefe.  deg.This paper calls for the 
following action steps in the United States: Provide outreach 
to all affected veterans and their families, health 
practitioners and disability-related service agencies; make 
available medical care for affected children and grandchildren; 
have a fresh approach to research, including a scientific 
consensus on unanswered questions related to Agent Orange; use 
of existing data for further research, particularly from the 
Ranch Hand study and the industrial worker data collected by 
the National Institute for Occupational Safety and Health; 
expansion of the Agent Orange Registry into a complete database 
of affected veterans and their offspring; coordination of data 
across the whole spectrum of veteran services; and, finally, 
provide direct services to veterans and their families in their 
communities.
    In closing, I wish to thank you again, Mr. Chairman and the 
committee, for its attention to this issue. I thank my fellow 
members of the Dialogue Group for their partnership and 
leadership, and for the Ford Foundation for convening the 
Dialogue Group and for its commitment to this issue.
    Thank you.
    [The prepared statement of Ms. Dolan-Hogrefe 
follows:]<greek-l>Mary Dolan-Hogrefe deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you.
    Ms. Watson. Mr. Chairman, apparently we have a vote on the 
floor. What are your intentions in terms of the committee?
    Mr. Faleomavaega. I do intend to continue, but we both have 
to go vote on the floor.
    And I just would apologize for the inconvenience of the 
realities. But I believe--Mr. Weidman, can you just reserve 
your testimony? Because we are just going to go vote and be 
right back. We will just have a little recess for 15 minutes, 
and we will be right back.
    [Recess.]
    Mr. Faleomavaega. I truly apologize to the panel. I wish 
there could have been a better way of conducting votes in the 
House, but this is how it has been ever since before I showed 
up. So thank you very much for your patience.
    I think we have saved the last one for the best.
    Mr. Weidman, please proceed.

STATEMENT OF MR. RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY & 
     GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA (VVA)

    Mr. Weidman. Thank you very much, Mr. Chairman. I am not 
sure that I am the best on this panel. This is a very 
distinguished panel, and the three predecessors to me on this 
panel are extraordinary.
    First, I want to, if I may, sir, pay due respect to the 
National Organization for Disability for all their great work, 
and particularly to Mary Dolan for her extraordinary work on 
the report that was released on June 1st, earlier this week, as 
being an extraordinary----
    Mr. Faleomavaega. And, without objection, I am sure, that 
report will be made part of the record.
    Mr. Weidman. That is great. It is really a fine piece of 
work, sir, and will stand American veterans in good stead.
    I want to touch on a couple of things. One is, in terms of 
this hearing, you asked, was enough being done on the American 
side? And the answer to that is still no, the same as it was 13 
months ago.
    At that time, there were no studies funded by NIH, by VA, 
by Department of Defense, by EPA, or by ARC, or anyone looking 
into the long-term health care deleterious effects of Agent 
Orange and other toxic substances utilized in Vietnam during 
the American war there, and today there are still none.
    We have great hope with the new administration. We have 
talked with Secretary Shinseki already, as well as to the White 
House, about the need for restarting things. And as soon as 
Secretary Shinseki is able to put in place new leadership 
within the Veterans Health Administration, and particularly 
within the research and development section of the Veterans 
Health Administration, we believe we will start to get some 
movement and start to get some additional research.
    Similarly, there has been a great deal of progress within 
the past 13 months in talking with the leadership of the House, 
particularly with Chairman Bob Filner of the House Veterans' 
Affairs Committee, in regard to Agent Orange legislation. We 
have some legislation now introduced. And it is just the first 
in a series of things that we believe will be able to move 
forward.
    Most hopefully, Speaker Pelosi publicly committed to the 
veterans organizations and military service organizations at a 
meeting we had this spring to have substantive, significant 
action on Agent Orange during the course of the 111th, not 
necessarily this session but before the 111th ends next year. 
And she has always kept her promises to America's veterans, and 
we trust she will keep this one as well.
    At that time, we also talked about the crying need for 
additional research and education of veterans. And since that 
time, we have issued a new self-help guide on Agent Orange that 
is available on the Web. And there are copies provided so that 
you can share one with the offices of each of your 
distinguished colleagues. But it is also available by going to 
the VVA Web site, vva.org.
    In addition to that, we have teamed with the private 
sector, with medical societies and disease organizations such 
as the American Diabetes Association, the National Men's Health 
Network, Easter Seals, and others, to form the Veterans Health 
Council. This is the little brochure.
    And we created a new Web site called 
www.veteranshealth.org. And when you go on that, you click on 
your service ribbon from your generation. So you and I from 
Vietnam would click on the Vietnam Service Medal. The Gulf War 
I vets would click on the Gulf War I Service Medal, and 
similarly for the global war on terror folks. And it is part of 
the effort to educate American clinicians, but it is still very 
small and not terribly well-funded.
    Last, but by no means least, is you asked the question, is 
enough being done in Vietnam? This gets to be complicated for a 
veteran service organization because our job is predominantly 
to advocate for American veterans, for our members and those 
eligible to be our members, and their families.
    In regard to birth defects, there is no registry. And that 
is one of the reasons why Ms. Dolan's report is going to be so 
useful, is it is not just us saying it, it is an 
internationally respected institution coming out and saying, we 
need this birth defects registry and we need a real registry to 
track the health of Vietnam veterans themselves, in addition to 
their progeny.
    But in regard to Vietnam, I can answer personally. I was 
raised to believe in my family that stewardship was a big deal, 
that you leave things better than you found it. I was a Boy 
Scout all the way up and took a lot of ribbing because even 
when I was a senior in high school in New York City I still was 
a Boy Scout, mostly because I could get out of the city 
cheaply, and that was the only way I could afford it. But I 
was. And I was always taught, and took it as something I have 
always tried to live to all my life, you always leave the area 
better than you found it, at least as good or better than you 
found it.
    And we did not do that when we went into Vietnam and fought 
our war there. It is unfinished business. We need to go back 
and police up our campsite. And whatever it takes in order to 
restore that, it is--and, once again, I am speaking personally 
because my organization does not have a stake in this--we need 
to do something about it. It is a moral imperative, as you put 
it so eloquently.
    We also believe and have evidence--and today is not the 
time to bring that forth, but we would be happy to work with 
you, as well as with the House Veterans' Affairs Committee 
staff, Mr. Faleomavaega, is we believe that the U.S. Government 
knew going in about many of the harmful effects of the 
herbicides. And whether that will make any difference or not, 
what we do know is that that is the case. And it will have 
implications both for our counterparts in Vietnam as well as 
for American veterans and their children, grandchildren, and 
great-grandchildren.
    I will be happy to answer any questions, sir. Thank you.
    [The prepared statement of Mr. Weidman 
follows:]<greek-l>Rick Weidman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Weidman, for your eloquent 
statement, and thank you for your observations. You are 
absolutely correct. Even though the focus is on what we can do 
to help Vietnam, just as serious are the implications in terms 
of what our country is doing about our own veterans and their 
needs and for those who fought during the war.
    Mr. Bailey, thank you very much for a most incisive 
statement. And I cannot thank enough not only the Ford 
Foundation but the Bill and Melinda Gates Foundation for all of 
the assistance they have given.
    I noted with interest in your statement that, for the first 
time, the Government of Vietnam has set up an analytical 
laboratory to detect dioxin. This is what I was trying to 
figure out, whether we had the technology or did the Vietnamese 
Government have the technology? Which is the better of the two, 
anyway? And it so happens that this was developed by the 
Vietnamese Government, did you say?
    Mr. Bailey. Thank you, Mr. Chairman.
    There are two things here. The analytical laboratory is 
required to be able to test down to one part per quadrillion, 
because dioxin can mess up human systems at one part per 
trillion, so you need to be able to measure below that.
    Mr. Faleomavaega. Well, let me ask you--I don't mean to 
interrupt you, but it is just basically, as you said, one part 
per quadrillion. I am just curious, was it really necessary to 
have the dioxin as part of a compound in Agent Orange to 
conduct the operations that we did in Vietnam?
    I like to think if it was a pesticide or herbicide, to 
destroy the environment, then it would not have a serious 
impact on humans. I just wanted to pursue that a little further 
with you.
    Is it your understanding that this was done purposefully or 
was it by accident? Because there is a certain mixture of this 
thing that comes out, in and of itself. I was just curious.
    Mr. Bailey. Sir, I am not a scientist, and my reading of 
the history of this is that these herbicides were commonly used 
in American agriculture during the 1950s, but in small amounts, 
on individual farms. And I regard it as a kind of scaling-up 
problem. When you go from small amounts carefully used by 
people whose land it is to a large military force using it at 
the landscape level, bad things can happen.
    And everything I have read suggests that it was a 
manufacturing defect and consequence of running production 
processes too fast in order to generate the large volumes that 
were being required.
    Mr. Faleomavaega. The question I raised about this is the 
fact that it was for a 10-year period, that somewhere or 
somehow--it seemed to take a while for the Department of 
Defense and those chemical companies involved to discover that 
there is dioxin in this mix.
    Did we really need it to accomplish the mission, which was 
basically just to conduct deforestation operations and not any 
more than what it--as a result of what we now see, that maybe 
the amount was a lot more than what, as you said, was needed to 
use as a pesticide or herbicide?
    And I was just curious, from your readings and 
understanding, why was it that we had to put that much dioxin 
in the mix? That is my question.
    And to be fair with you, I know you are not a scientist. 
Maybe Professor Quy might help us along those lines.
    But you say that in the current usage of herbicides and 
pesticides throughout our own country, there is a very small 
amount of dioxin contained.
    Mr. Bailey. No. What I was trying to say, Mr. Chairman, was 
that under normal farm conditions in the 1950s, these were 
strictly herbicides, for cleaning weeds out of irrigation 
ditches, for example. But when they started to be produced in 
much larger volumes, the manufacturers got sloppy and produced 
this other compound, dioxin, along with the herbicides.
    The dioxin, to my knowledge, has no effect as a herbicide 
itself. It is not required as part of the herbicide action.
    Mr. Faleomavaega. Maybe Professor Quy could help us out on 
that.
    Mr. Quy. The U.S. Army used the herbicide the same like 
using it in the agriculture, but the more potent--the 
concentration of this is different from the agriculture. In 
Vietnam, they used the concentration of the herbicide Agent 
Orange 10 to 25, something more than the level of the 
concentration. And that is why they are very toxic.
    I can tell you that one kind of compound using normal in 
the family like sugar. If you eat every day one part of sugar, 
it is normal. But a human cannot eat in 1 day 10 times or 20 
times of sugar. If you eat the same sugar with a high level 
like this, the sugar will kill the human.
    Mr. Faleomavaega. Professor Quy, is there a lifetime for 
the dioxin once it is exposed to the air or to the soil or to 
the trees? Does it disappear over time? You know, like, 
plutonium is 10,000 years. So is dioxin----
    Mr. Quy. Yeah. About 366 kilogram of the dioxin in the 
Agent Orange that was sprayed in the south of Vietnam. But the 
dioxin is very toxic, a very small part, 1 million parts a gram 
can affect the health of the human.
    Mr. Faleomavaega. And one of the reasons for the dangers of 
dioxin is that it becomes part of your genetic makeup; is this 
the problem? In other words, if I had consumed, or whatever it 
is, into my body, that means my children are genetically 
affected by it just simply because of the poison, or the toxin, 
if you will.
    What I am curious about, in your scientific understanding 
of this poison, how long does it last? It sounds like it is 
generational. It could go on for three or four generations. 
What is your understanding of this?
    Mr. Quy. We don't know exactly this will exist in the human 
being how long. Now, in Vietnam, this is the third generation 
affected by the herbicide, maybe in the gene of the human. But 
not all of the human contaminated by dioxin can affect the 
gene. If the dioxin affected the gene of all people 
contaminated by Agent Orange in Vietnam, there may be millions, 
billions of children affected by the herbicide, by the dioxin.
    Mr. Faleomavaega. Mr. Weidman, to your knowledge--and I 
know you have been following this very well for all these 
years--have there been incidents or, actually, the same 
situation, that our soldiers who were exposed to dioxin, that 
it has generated this genetic defects among the soldiers' 
children, grandchildren, and great-grandchildren? Have there 
been cases where it has been verified----
    Mr. Weidman. There are cases----
    Mr. Faleomavaega [continuing]. That dioxin was the cause of 
this defective malady in children, especially for men and women 
in the military?
    Mr. Weidman. I understand what you are----
    Mr. Faleomavaega. See, I keep getting the response from our 
friends in the administration that there has been no scientific 
evidence sufficient to prove that there is a connection between 
dioxin and the health conditions of our soldiers, so, 
therefore, it could be anything.
    And that just kind of bugs me a little bit when they keep 
evading. The question is very simple: Did it or did it not 
affect genetically, physically, in every way, those of our 
soldiers who were exposed to it?
    Mr. Weidman. If I may take a stab at that--I am not a 
scientist either, and so I beg off scientific expertise. But we 
have learned more than the average bear, as they say, about 
this over the years.
    First of all, it does diminish over time, but many places 
in Vietnam--as an example, the Tibet Special Forces camp, 
almost 40 years later, 35 years later, tested at 1,000 parts 
per billion. And we know that there is no known lower threshold 
of--nobody knows what threshold you need, but people speculate 
that it is somewhere around 10 or 12 parts per billion that 
causes abnormalities.
    We know that dioxin, when it passes through the body, does 
its damage by changing the DNA in the cells, but it damages it 
in different ways. So it may be different in my DNA than it 
would be in your DNA, but there are certain birth defects that 
are recognized as being associated with exposure to something 
in Vietnam. And that is why we have a list of I think it is 17 
things that are associated for women in Vietnam with birth 
defects, even though only spina bifida is service-connected for 
the children of male Vietnam vets.
    Incidentally, the evidence was no stronger for the women 
than the men. And that is what causes a lot of people to be 
suspect about when the government says there is no proof or no 
scientific evidence. Scientific proof and scientific evidence 
are two different things. They don't know what causes lung 
cancer; otherwise, we would have a cure for lung cancer. But 
every single study shows the association of smoking with lung 
cancer to the point where nobody doubts it anymore.
    But zillions of studies have been done. But if you don't 
look for these associations, you ain't going to find them. Dow 
Chemical is not going to fund these studies of my grandchildren 
or my great-grandchildren. It has to be the U.S. Government, 
because ain't nobody else going to do it. And the government 
has not been funding these studies. If you don't look, you are 
not going to find. It is another variation of ``don't ask, 
don't tell'' policy.
    Mr. Faleomavaega. And it is also like, if you ask the wrong 
questions, you get the wrong answers.
    Mr. Weidman. Well, that is absolutely correct. And that is 
why we are so upset with the lack of research into the long-
term effects of Agent Orange.
    And, you know, it may be the dioxin, it may be something 
else in Agent Orange itself, it may be something in the 
arsenic, it may be something in the organic phosphates and the 
pesticides that we used in Vietnam, and it may be a synergistic 
impact of all of those. But what we know is that there are 
certain conditions that those of us who served in Vietnam 
versus those who served in military elsewhere, we have certain 
conditions in a much higher proportion. We believe the same is 
true of the individuals who live in Vietnam, the Vietnamese, 
who were in the south during the war and have now gone back 
north, that it is higher also. But that is why we need the 
epidemiological evidence.
    But, at some point, the government is being disingenuous 
when it tries to say that you have to find causality, Mr. 
Chairman. That is baloney. All you have to do is find 
association and move forward.
    Mr. Faleomavaega. Thank you, Mr. Weidman.
    Ms. Dolan, did you wish to comment? You look anxious.
    Ms. Dolan-Hogrefe. I am a bad poker player; I look anxious. 
Yes, I would, actually, Mr. Chairman. Thank you for the 
opportunity.
    I wanted to draw to your attention that samples from the 
Ranch Hand studies are now with the Institute of Medicine. They 
do not have a mandate to do anything with those samples other 
than to just keep them safe. And that mandate is for a 2-year 
period of time, which I think terminates in just a little bit 
over a year.
    I have been advised that those samples include information 
on 8,100 live births to those who were the Ranch Hand 
individuals, to Ranch Hand parents. And they are tremendously 
valuable, and they constitute the only body of epidemiological 
information gathered consistently over time on a group known to 
be of high risk. I would love to have a research entity have 
access to those live births data. And it has been advised that 
one might find something interesting there.
    I would also encourage a few other things to be looked at. 
One is a report done out of the Yale School of Nursing which 
reviewed some of the analysis on Ranch Hand, looked at it in a 
different way than some other researchers had, and found the 
group of individuals from Ranch Hand to be a ``vulnerable 
group'' in terms of having children with birth defects.
    Mr. Faleomavaega. Can you describe, Ms. Dolan, when you 
said ``Ranch Hand,'' for the record?
    Ms. Dolan-Hogrefe. Sure.
    Mr. Faleomavaega. Because I thought maybe you were working 
on a ranch with cowboys and Indians or something. I am not 
clear on that.
    Ms. Dolan-Hogrefe. Absolutely, sure. The Ranch Hand was 
the--and, actually, I should have Rick answer; he could do it 
even better than I can--but is a term that was used to--the 
shorthand term used for the gentlemen who were spraying in 
Vietnam.
    Mr. Weidman. It was the code name for the mission of 
spraying herbicides in the Air Force unit that had that task.
    Ms. Dolan-Hogrefe. Thank you.
    And, if I may, just one more quick reference is that a 
study is coming out this year out of I believe it is New 
Zealand that is an epidemiological study of their veterans who 
served in Vietnam who also were exposed. And the Institute of 
Medicine is awaiting those results and is hoping to find great 
use from that, as well.
    Mr. Faleomavaega. What about the soldiers, some 50,000 
soldiers from South Korea who also served in Vietnam? Mr. 
Weidman, have you heard of anything from any studies or any 
concerns coming out of that?
    Mr. Weidman. There have been some studies in Korea but not 
nearly as many as have been done in New Zealand and in 
Australia.
    Incidentally, virtually all the science on dioxin is done 
elsewhere other than the United States. There are 97 countries 
that are interested in the question of dioxin minimum and the 
after-effects of the health care, and virtually none of those 
studies are done in the U.S.
    Mr. Faleomavaega. By the way, it is my intention for the 
subcommittee to work very closely with the Veterans Committee, 
the Armed Services Committee, and hopefully we are going to 
find something to get into this.
    I just want to share with the members of the panel the 
official position of the United States pertaining to the 
subject matter, and I want to share this with you:

          ``The consistent position of the United States has 
        been that the U.S. military use of herbicides in 
        Vietnam was consistent with international law. In the 
        view of the United States, any categorical ban on the 
        use of poisons under international law is limited to 
        weapons used for the primary and intended effect of 
        causing injury or defoliating military bases, 
        transportation corridors, and other crucial territory, 
        and destroying enemy crops. Therefore, it did not 
        contravene the ban on poisons.''

    There have been a number of U.S. court decisions, including 
the recent Second Circuit decision in the case of Vietnam 
Association for Victims of Agent Orange v. Dow Chemical 
Company, 517 F.3d. 104. Apparently, the result of this Federal 
case that was taken by our veterans association came out in 
favor of Dow Chemical.
    But I wanted to ask you, when they say here ``international 
law,'' and you mentioned that 97 countries know more about 
dioxin than our own country, which produced it and used it for 
some 10 years in Vietnam, I am a little puzzled by this.
    Mr. Weidman. We can't judge the whole United States by 
Judge Weinstein's decisions. And because this is on the record, 
but privately I will air my thoughts on that. And let's just 
say that we think that Judge Weinstein's decisions are neither 
lucid in regard to the facts that are existing today in 2009, 
that he is operating at least on facts that are 15 years old 
about what is known, and in matters of law, it strips the 
government of any accountability for exposing anyone, including 
our own service members, to things that they knew were harmful 
by his decision.
    The question of funding of science, though, that would look 
into the long-term effects of the herbicides, and particularly 
the dioxin, is something that is important not just to 
veterans, but there are dioxins all over this country that are 
used in industrial byproducts, whether it is from waste 
management--all kinds of things.
    The fact that there isn't any major studies looking not 
only not at Vietnam vets but at the impact of dioxin says 
something about the petrochemical industry and what a grip it 
has on national policy that we need to move beyond in order to 
have--everybody is talking about green industry. Well, let's 
concentrate on something that is anti-green, and that is 
dioxin, and where it is <greek-l>it  deg.within our own 
environment in the United States, as well as how <greek-l>does 
deg.it impacts U.S. military folks as well as the people of 
Vietnam and other countries in Southeast Asia who were exposed 
to this in lugubrious amounts.
    Mr. Faleomavaega. I am getting the impression, as I shared 
with you the position of our Government concerning this, that 
our use of Agent Orange was in compliance with international 
law.
    My question is, given the amount of dioxin that we 
purposefully used as part of the Agent Orange compound to 
conduct deforestation operations and what we have done, my 
question to you is, does that sound like we violated 
international law to that extent? This is not just a mere 
herbicide or pesticide like we use for agriculture purposes. I 
think we have done a lot more.
    I wanted to ask Professor Quy, you had shared with us the 
amount of acreage, or hectares, for that matter, especially in 
South Vietnam and the impact of what has happened due to the 
usage of Agent Orange.
    And I wanted to ask you, what is the lifecycle? Are there 
still areas in the country that are completely barren, without 
any growth again of forests or trees? What is the situation now 
in the soil itself if dioxin or the Agent Orange came in 
contact with that? Where are we with that?
    And I know that this is one of the specific areas that you 
have studied quite well. Can you respond to that?
    Mr. Quy. In our country, there are about 3.3 million 
hectares of land affected by herbicides.
    Mr. Faleomavaega. One hectare is, what, 540 square acres?
    Mr. Quy. 3.3 million hectares of land, natural land, in our 
country affected by herbicide. But the effect there is very 
different.
    First, I would like to tell you about the hotspots. We 
found three hotspots: First in Danang Airport, a second in Bien 
Hoa, and a third in Phu Cat. The concentration of dioxin in 
these sites is very high, not only higher than 100 PPT but 
sometimes a hundred times higher. And this area we have to 
clean up as soon as possible.
    Mr. Faleomavaega. How deep did you have to dig into the 
soil to conduct your cleanup operations? Was it just on the 
surface of the soil? Did you go down three feet deep? How did 
you conduct your cleanup operation?
    Mr. Quy. It differed from this place to the other place. 
The most deep, about 30-something mega in the surface. But in 
many place, the dioxin in the deep sometimes 1.5 mega.
    Mr. Faleomavaega. So you are saying that, especially in the 
wetlands, where you do agricultural cultivation, the dioxin is 
underneath the soil?
    Mr. Quy. Yeah. And the other place, the place they sprayed 
in Vietnam, until now, the residue of dioxin reduces every 
year, year to year. But now we found that the contamination of 
dioxin in this area lower than 11 can use agriculture and 
forestry, but it exists in the land. Lower 1,000 PPT, that 
means you can use this land for agriculture and forestry.
    And we try to replant this area, but not easy. It takes 
time, takes money and labor to do this. And the price to 
replant one hectare in this area, 10 times higher as normal. 
And that is why many places affected by herbicide and the 
forest destroyed completely, but the people of this area, the 
most very poor, the most people of this area are very poor. And 
that is why in our country, our people, our Government is 
trying to help them to replant this area.
    But in the south of Vietnam, there are about 1 million 
hectares denuded by herbicide. If we try to plant in the near 
future half of this area, that means about 500,000 hectares. 
Because in this area, the place that there are many people 
living, and they are very poor. And we think that in this area, 
we can use this area, but very, very--it takes a lot of time 
and money to do this. I mean, it is costly.
    Mr. Faleomavaega. I would like to ask Mr. Bailey and Ms. 
Dolan if, to their knowledge, has there ever been any 
cooperative effort made between the Ford Foundation and our US-
Vietnam Dialogue Group with the National Institutes of Health? 
There is a big reservoir of resources. Has there ever been any 
analysis, study, projects or anything done under the auspices 
of the National Institutes of Health to address this question 
of dioxin?
    Mr. Bailey. Mary has volunteered me to answer.
    Mr. Faleomavaega. Both of you can answer it.
    Mr. Bailey. Right.
    That is a very good idea, Mr. Chairman.
    There is, in addition to the Dialogue Group, a Joint 
Advisory Committee, which is the technical binational committee 
between the two governments. And in their meeting last 
September, we understand that they decided to set up two task 
forces, one for health, one for environment.
    The health one has still to formulate its terms of 
reference. And I am hopeful that this visit of the Dialogue 
Group to the United States may further that goal, so at the 
next meeting of the JAC in Hanoi in September there will be a 
blueprint or at least a terms of reference, which wouldn't 
necessarily reach out to American technical expertise, although 
the relevant JAC members are actually in the CDC in Atlanta, in 
the National Center for Environmental Health.
    Mary?
    Ms. Dolan-Hogrefe. I would just comment that what the 
Institute of Medicine has been doing for a number of years now 
is, it is a very valued process of reviewing the literature and 
the science regarding Agent Orange. They are not doing science, 
they are reviewing science. And that, again, is useful, but 
what they are not able to do, of course, is to make any policy 
changes that will benefit U.S. Vietnam veterans or Vietnam 
veterans themselves in Vietnam.
    And whenever there have been some movements regarding 
adding additional conditions, I know on the U.S. side it has 
been out of policies from Congress, not necessarily out of the 
reviews of IOM.
    So, thank you.
    Mr. Faleomavaega. In times past, in your involvement 
concerning Agent Orange/dioxin, have there ever been any 
congressional mandates or directives toward the Department of 
Defense or any of our agencies to follow up or to conduct any 
comprehensive study dealing with Agent Orange and dioxin?
    I get the strong impression that every time we try to get 
answers, then our friends downtown--and this is not meant to be 
negative or anything, but they just seem to evade the issue. It 
is something like, ``Well, we don't want to deal with it.'' Or, 
as you said, Ms. Dolan, are they doing the science or are they 
just kind of casually talking about it but not really going 
into the depths of how we really have been using this poison?
    Mr. Weidman?
    Mr. Weidman. Mr. Chairman, I think Ms. Dolan--correct me if 
I am wrong, Mary--was talking about the processes set up under 
the 1991 Agent Orange Act. The Institute of Medicine of the 
National Academy of Sciences, their charge under that statute 
is to review all science that has been published, is peer-
reviewed, studies within the preceding 2 years. And they have 
done that generally very well.
    But they can't review what doesn't exist. And because NIH 
and the VA and DOD and ARC and Environmental Protection Agency, 
on and on and on, don't fund these studies to study the long-
term health care effects of Agent Orange, of dioxin, of other 
toxic materials, IOM can't review it. So they can't do their 
job properly.
    What IOM has said to us is that obviously they could use 
more science. And I am talking about the independent scientists 
who have served as chairs of those committees when they make 
their biannual report. And it changes every 2 years. These are 
people who give up their time to come and work on, frankly, a 
thankless task. And we always make it a point to thank them, 
because it doesn't help their career, necessarily, to deal with 
this issue.
    But the point is that we have asked them, what are you 
lacking? And every one of them has said, we do need more 
science in Vietnam, but what we are really missing is robust 
epidemiological studies of Vietnam veterans and their families 
and, by extension, robust epidemiological studies of others 
exposed, such as the current Vietnamese population, including 
babies born.
    And the fact that that science is not being done once again 
gets back to the ``don't ask, don't tell.'' If you don't look, 
you don't find.
    Mr. Faleomavaega. I appreciate that comment.
    At the same time, I don't want to continue to have hearings 
until the Second Coming. This is all part of establishing a 
record. And I think you hit it right on the nail, Mr. Weidman. 
If the Congress has the political will to provide substance, to 
establish a comprehensive study, as you said, the science, by 
going to Vietnam with a team established or funded by the 
Congress with the help of our NGOs and foundations, a 2-year 
period or whatever it takes to come up with--but are we 
replicating things that have already been done, Ms. Dolan?
    Do you think that right now, in and of itself, we have the 
right data and information to say, ``Okay, we have it; now what 
are you going to do about it?''
    Ms. Dolan-Hogrefe. Yes, Mr. Chairman, I think that data 
does exist. I do think it would be extremely fruitful to have 
funding for studying those Ranch Hand biosamples that are 
sitting there, not doing anything. That would be very useful.
    But if we look back at the history of those who have been 
able to tackle this issue in other ways or in other countries, 
there is a great desire to continue that science. But let's 
maybe also get past the science and recognize that there are 
people suffering and there are people with disabilities, both 
here in the United States and in Vietnam, who are suffering 
now; and the more time we spend talking about the science and 
the debating of science, the more time passes and the more 
human potential is lost.
    I would draw your attention to some of the challenging 
surveys that have been put together in the past here in the 
United States.
    There was this report that was supposed to come out of the 
Centers for Disease Control back in the '80s. There was a large 
article about this in Time Magazine and the many obstacles that 
were put before that survey and how it was to be a definitive 
account for our Vietnam veterans and their families about their 
exposure to Agent Orange and the effects. But numerous reports 
have discussed manipulations of that survey data and why it 
never revealed what it should have revealed.
    Similarly, the Ranch Hand study, there has been controversy 
about that since the beginning and whether the methodologies 
that have been used to study the data were appropriate. Should 
they have been changed along the way and why did it not reveal 
the data that it should have? Former Senator Daschle was very 
influential in getting some of that data released, and that is 
what we are still dealing with now.
    The final thing, I would just hope that we wouldn't only 
worry about funding the science, despite my sincere interest to 
find out what the 8,100 live births say in the biosamples, but 
also to call on immediate attention to the human suffering and 
disabilities. Thank you.
    Mr. Faleomavaega. I am very happy we are joined by our good 
friend and my colleague from Louisiana, Mr. Cao, if he has any 
questions.
    Mr. Cao. Thank you, Mr. Chairman. I was busy in a 
deposition for the last couple of hours, but I would like to 
address questions concerning the health care process.
    If you know, presently in Vietnam, Professor Quy, what 
specifically--what activities have been done in order to 
address the many effects of Agent Orange for the people inside 
of Vietnam by the Vietnamese Government? Do you know?
    Mr. Quy. The human being?
    Mr. Cao. I am sorry?
    Mr. Quy. You like to talk about the effect of herbicide----
    Mr. Cao. No, what has specifically been done by the 
Vietnamese Government to help the Vietnamese people, those that 
have been affected by Agent Orange inside Vietnam?
    Mr. Quy. In our country, the government tried to help the 
victim of the Agent Orange in our country. To now, the 
government gave first the same, about 200,000 victims of Agent 
Orange. And every year about $50 million for this for the 
victim of Agent Orange in our country.
    I tell you there are about 200,000 people that receive the 
government support. There are some--I know exactly--about $50 
million or $70 million per year--$50 million per year for 
200,000 victims of Agent Orange.
    Mr. Cao. Now, this is 15 million Vietnamese dong; is that 
correct?
    Mr. Quy. In dong. In dong.
    Mr. Cao. Is this 50 million per or $50 million that have 
been----
    Mr. Quy. $50 million.
    Mr. Cao. Okay.
    Mr. Quy. Per year.
    Mr. Weidman. Five zero.
    Mr. Quy. Five zero million dollars per year.
    Mr. Cao. To assist around 200,000 victims.
    Mr. Quy. Yes, but the victims are higher.
    Mr. Cao. Yes, because according to the CRS, there are about 
3 million. So are there are any programs out there to assist 
the other remaining 2.8 million victims of Agent Orange?
    Mr. Quy. We tried to do this, but the fund is very limited 
in our country now. And that is why we try and would like to 
have support from outside.
    Mr. Cao. Okay.
    Mr. Quy. Including the U.S. Government and NGO 
organizations, the United States and other countries as well.
    Mr. Cao. Do you have any methods to remediate the soil that 
has been contaminated by Agent Orange?
    Mr. Quy. Now, in hotspot, we try to cover the hotspot. But 
we organized a meeting, discussion with expert from outside, 
including the U.S. expert, to discuss the technical help to 
eliminate the dioxin in the hotspot.
    Mr. Cao. Now, my question goes to the three members--the 
other three members of the panel: Mr. Bailey, Ms.--is it 
Hogrefe?
    Ms. Dolan-Hogrefe. Ms. Dolan is just fine. Thank you.
    Mr. Cao [continuing]. And Mr. Weidman.
    What do you think--what can the U.S. Government do to 
further assist the Vietnamese Government in its problem in 
addressing Agent Orange besides an increase in funding?
    Mr. Bailey. I will go first, sir.
    I think that we are seeing an increasing level of technical 
collaboration, particularly in the environmental remediation at 
Danang airport. By the end of this year, I think we will know a 
great deal more about how much contaminated soil is there, to 
what degree it is contaminated, what it will cost, and how it 
might best be done. So I regard the environmental part as 
coming more clearly into focus.
    And in my earlier remarks I suggested that for all three 
hotspots it might be on the order of $50-60 million to 
remediate them to the standard set by the Government of 
Vietnam. This is in cooperation with the Environmental 
Protection Agency at a technical level that has been going on 
for several years.
    I think there are also further opportunities for technical 
exchanges and other matters that would--in addition to simply a 
transfer funds.
    On the much larger issue of health, I would say that 
matters are--in addition to what Professor Vo Quy said, the 
continuing monthly income supports, that there are a number of 
special programs still at the pilot level which are providing 
lessons and which could be spread and scaled up toward building 
a more modern, comprehensive social services system. And I 
think there are many opportunities here for joint 
collaboration, to which I think Mary can speak.
    Ms. Dolan-Hogrefe. Yes, to echo what Charles just said, I 
would agree that in, addition to funding as a complement to it, 
as part of it, which should be technical assistance in a 
variety of different areas related to people with disabilities, 
including advocacy and awareness for people with disabilities, 
improving their systems of service delivery and case 
management, training medical professionals and rehabilitation 
professionals, education for people with disabilities, job 
training, respite care, long-term care facilities. Any number 
of issues that the United States has tremendous expertise in 
that they can share as part of improving the human condition in 
Vietnam.
    You asked, Mr. Congressman, what can the U.S. Government do 
to further assist Vietnam. I have heard, as a member of this 
US-Vietnam Dialogue Group, a number of times from my 
counterparts on the Vietnamese side the issue that Agent Orange 
is an ongoing concern for them as part of the normalization of 
relations between the United States and Vietnam. The chairman 
read out the continued view of the United States, and I would 
mention that this would be an issue of recasting some of our 
sentences about what happened during the war, the use of Agent 
Orange, in order to further move forward with our relationship 
with the good people of Vietnam.
    Thank you.
    Mr. Weidman. You asked besides money. A lot of it has to do 
with organizational capacity, Congressman; and some of that has 
to do with money. There has been significant criticism by our 
scientists of Vietnamese science, but a lot of that all 
revolves around, as an example, whether you have access to a 
mass gas spectrometer in order to measure things to the 
specificity that you need when you are dealing with something 
like dioxin.
    So transfer of scientific, organizational, basic 
infrastructure like mass gas spectrometers and other kinds of 
basic things that we take for granted within the United States 
to Vietnam would be of enormous assistance. That is not direct 
cash, but that is both expertise and equipment.
    And the Vietnamese certainly are, as you well know, sir, 
smart industrious folks. If they have the resources and 
technical assistance, their science will be every bit as good 
as anybody else's in the world and come up to WHO standards.
    The original plan that was in the Memorandum of Agreement 
signed in March 2002 called for that. It called for that 
exchange essentially of and furnishing the Vietnamese in 
collaboration with them, not us telling them what they needed 
but them telling us what they needed so we would know what to 
give them to be able to have that organizational infrastructure 
to do an environmental assay across the country and to do an 
epidemiological study across the country.
    In order to do an Agent Orange/dioxide study, you have to 
develop a system of medical health records; and in the 
consequence of that you deliver care, almost the same way I did 
as a medic when I served in Vietnam doing MEDCAP patrols.
    And last but not least, if you did that research, that is 
certainly something that my organization can support. Because 
once have your organizational capacity, you can do the research 
in Vietnam. Because you know precisely who was exposed and who 
wasn't, particularly if you look in the north. You know who 
went south and who didn't. Those who went south were exposed. 
You know exactly who their progeny are. And that science would 
be much more precise than anything that we could do in the U.S. 
today. Because we have so much sources of dioxin exposure in 
the United States, depending on where you live in the country. 
If you live near a petrochemical place in southwest Louisiana, 
you might be exposed to dioxins there.
    Mr. Cao. I just have one more short question. This is 
directly to the whole panel----
    Mr. Faleomavaega. Mr. Bailey had a further comment to your 
question.
    Mr. Bailey. I just wanted to add, sir, an example to Mary 
Dolan's comment.
    One of the things I have observed is the importance of 
individualized treatment and care plans at each stage of the 
life of a person born with physical or mental disabilities. To 
do that, to pull down the various resources of health, 
education, vocational training, and so forth requires trained 
social workers. And the creation of the modern profession of 
social work in Vietnam would be an enormous opportunity to 
which our country could contribute.
    Mr. Cao. This is my last question. Concerning the 200,000 
people that have benefited by some of the programs initiated by 
the Vietnamese Government, is there a study out there that 
follows, for example, the people's religious affiliations, 
whether or not they are politically connected? Are those 
benefits provided by the government, are they accessible by 
everyone, or at this present moment is it only a few specific 
groups of people that are allowed to have access to care?
    Mr. Quy. About the 2--more than 200,000 victims that I've 
seen they receive support from the government. But in Vietnam 
at least more than 1 million people are affected by herbicide 
there, but the fund from the government and the--not so much, 
and we cannot extend this support. I hope in the future, with 
the support of the whole people of Vietnam and the fund higher, 
we can support more people affected by herbicide in our 
country. And outside of the government there are--many NGO 
organizations raises the funds and organizes many activities to 
support the victim of Agent Orange in Vietnam.
    Mr. Cao. I guess my question was--more specifically, my 
question is, the 200,000 who got treated, are they friendly to 
the party, to the Communist party, or do they represent a wide 
range of people or are they representative of everyone in the 
country?
    Mr. Weidman. Congressman, the only one that I have seen is 
in Danang, and it is run in affiliation with the State 
University of New York at Binghamton. I visited there in 2006 
for 3\1/2\ days. It is actually the School of Social Work, and 
students do internships in Vietnam working with children with 
birth defects in order to deliver respite care so that the 
families can work. And so the families stay together.
    We asked that question, whether there was difference or 
interference based on religious preferences. And they said, no, 
they chose strictly on the criteria of determining who had the 
most severe birth defects, that needed constant 24-hour care 
and, therefore, respite care was necessary for the family, for 
the mother and father to go earn a living so they could keep 
the family together. And they said they had encountered none of 
that, at least in the province in the area around Danang.
    Mr. Cao. Mr. Chairman, that is all the questions I have. 
Thank you very much.
    Mr. Faleomavaega. I thank the gentleman from Louisiana for 
his questions and interest in the issue.
    I just wanted to note for the record that I had the 
personal privilege recently to discuss this matter with Senator 
James Webb, who is the chairman of the Senate Foreign Relations 
Subcommittee on Asia Pacific. So I am looking forward to 
working together with Senator Webb, and we are going to 
continue making the exploration.
    But like I said earlier, there comes a time that--I think 
someone once said fish or cut bait. I don't think we can 
continue doing the research and all of this. Forty years has 
gone past.
    I am not a very good mathematician, but since 1961, that is 
well beyond the time. I am sure my friend from Louisiana knows 
something about evidence. And within the 96 hours you have to 
make sure that you are there to get the evidence and make sure 
that we have it. Forty years later, it is a little too late. 
And I am very fearful that we conduct the studies but we may 
have lost a lot of the substance that we needed to make sure 
that we can make a better judgment based on the data and 
information.
    And, Ms. Dolan, I appreciate your sense of confidence that 
we do have all the data. We don't need another oversight 
hearing. I think what remains to be done now is further 
collaboration with my good friend from Louisiana about 
introducing legislation to address some of these fundamental 
issues that all of you so graciously and so eloquently have 
brought to the forum. And I hope that in the coming months--
maybe even earlier--that we are going to come up with something 
a lot more substantive.
    I really think that if it is possible for the Government of 
Vietnam to establish an analytical laboratory to detect and 
conduct testing on dioxin, I cannot believe that we are not 
able to do the same, Ms. Dolan. Do we have the technology, Ms. 
Dolan, to do it, if we wanted to?
    Ms. Dolan-Hogrefe. To test soil?
    Mr. Faleomavaega. Yes, soil, human beings, whatever is out 
there.
    Ms. Dolan-Hogrefe. I believe so. And from the Ranch Hand 
studies, that is human blood samples and other samples have 
been taken. So absolutely in that case, sure.
    Mr. Faleomavaega. Do you think that court decision which 
ruled in favor of Dow Chemical Company was because of the 
smartness of the lawyers and not necessarily because of the 
substance, that perhaps the judges were misled? In any way or 
form, something was missing here as far as this decision here. 
Because I cannot believe that for a 10-year period, with all 
the uses of this terrible poison or whatever you want to call 
it, the dioxin, that it just seemed to have just continued for 
10 years.
    The biggest question in my mind and certainly with all of 
you members of the panel is that we caught or discovered this 
imbalance, if you will, that we put just a little bit too much 
dioxin into the Agent Orange compound. My question is why 
wasn't anything done about it? Was it done in conformance or 
compliance with international law? This is the claim that our 
Government makes. I get the impression that the use of dioxin 
was perfectly legal under international law. Is that correct?
    Mr. Weidman. No, sir, it is not. In fact, we have always 
contended--``we'' meaning the United States Government--have 
always contended that it was used for deforestation. When we 
were doing FOIAs for another purpose, looking into Project 112 
and Shad, the memos that we were able to dig up from a number 
of resources--not from the government, by the way, because they 
sandbagged us on FOIAs, claiming classification. We found it 
elsewhere, documents that had been declassified. They listed 
crop destruction and then deforestation subsequently.
    Well, crop destruction under the Geneva Accords is 
specifically illegal, one. Two is that we have the 
documentation--and I know you don't want to do another hearing, 
but at some point----
    Mr. Faleomavaega. If necessary, we will do another hearing. 
But I like what you are saying so far, Mr. Weidman. Continue, 
please.
    Mr. Weidman. We have some documentation to show that 
Project 112, which is what we were looking at in the course of 
researching that, we discovered something we never knew, and we 
have been at this a long time. When I say ``we,'' I am talking 
collectively, not just VVA. The veterans' advocates did not 
know it was part of Project 112. And Project 112 was Robert 
McNamara, being the way he is, had gathered all the chemical 
and biological stuff under one umbrella, and that was Project 
112. And that Agent Orange and herbicides was all part of that; 
and Fort Detrick had the operational control over the whole 
deal, including the weight of the powder mixed with each 100 
gallons of water once it went to Vietnam, which turns out that 
it was four times as strong as we ever thought it would.
    In preparation for the next round of talks on the Geneva 
Accords on banned warfare, on chemical warfare, when Henry 
Kissinger became Secretary of State, Nixon came in. It was 
Kissinger that got him moved out of Project 112 because he did 
not want to deal with herbicides when he got to Geneva. And 
they began the fiction that we weren't testing biological or 
chemical weapons but rather we were only testing defenses 
against biological and chemical attack, when in fact we were 
testing weapons.
    But the point is this. They knew that what we were doing 
with the herbicides was against international law, one, and, 
two, even went so far as to commission a study by the Rand 
Commission to look at the mountaintop rice paddies. If you are 
looking at me funny, that is because there are no mountaintop 
rice paddies. There is only one set of rice paddies, and that 
is for the civilian population, and the Viet Cong and the NVA 
would tax the farmers in order to have rice for their troops. 
But it is categorically illegal under international law to 
destroy civilian food supplies, so, in fact, it was not in 
compliance with international law.
    Mr. Faleomavaega. Which raises another question to follow 
up to what you just said, Mr. Weidman: Did the chemical 
companies know what they were mixing at the time? Were they 
aware that the dioxin mixed with whatever other chemical 
compounds--were they aware of the contents or the percentage of 
the dioxin being mixed into the Agent Orange before the 
substance was sprayed?
    Mr. Weidman. I am not an attorney, nor am I a magistrate. I 
don't know legally whether they are responsible.
    Do I believe the chemical companies knew? Yes, I----
    Mr. Faleomavaega. They are the ones who mixed the Agent 
Orange.
    Mr. Weidman. Well, the dioxin--the higher rate of dioxin 
came when there was pressure on the industrial capacity of the 
chemical companies to produce enough Agent Orange fast enough. 
Therefore, they created it at much higher temperatures. It is 
the high temperatures that generated the dioxin. The same way 
incinerators, industrial incinerators in America will generate 
dioxin if you don't watch what they are doing. And you have to 
guard against that.
    Well, there wasn't any guarding against that. Whether or 
not the government knew or not is debatable; and, in fact, it 
has been debated time and again in a courtroom. The government 
said that they didn't know, and the chemical companies say they 
were only making it to government specification and therefore 
resort to the Federal contractor defense against any liability.
    Mr. Faleomavaega. All right. Again, I want to sincerely 
offer my apologies. We have gone way beyond the time that I had 
for you to come before the committee.
    I cannot thank you enough, Mr. Bailey, being the third 
party, innocent party, coming in on behalf of the Ford 
Foundation to do all it can voluntarily to help us with this 
issue.
    But I have a little, I guess, in my own ideological bent in 
doing something of this nature to the effect that sometimes, as 
a matter of policy, it is not the legalities; it is not the 
niceties. I think Mr. Weidman just said it is a moral 
imperative that we do this right, not just for our own men and 
women in uniform who served in that war, but as an institution 
and for what this government stands for and, hopefully----
    My good friend from Louisiana and I look forward to going 
together to Vietnam in the future. This will be his first visit 
since leaving.
    I would highly recommend members of the panel and our good 
friends here in the audience read what this gentleman went 
through, such a tremendous sense of pride. And I am just so 
happy to have as a fellow American who happens to be of 
Vietnamese ancestry to be serving as a member of this great 
institution, as a Member of Congress.
    With that, Congressman Cao, again, thank you so much for 
taking the time from your busy schedule.
    He's not even a member of our Foreign Affairs Committee, 
but I have asked him to join us because I think it touches some 
good nerves in there. I know he has tremendous interest in 
wanting to see what can be done and what our Government can do 
to give assistance to the good people of Vietnam.
    And again, to all of the members of the panel, thank you so 
much for being here. Hopefully, we will have another oversight 
hearing and maybe by then a bill to discuss and give it a 
little more teeth. What do you think, Mr. Weidman? That will 
probably even give it a little better sense of purpose.
    Thank you so much. The hearing is adjourned.
    [Whereupon, at 5:38 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Manzullo statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Briefer: Xuan statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Hogrefe FTR deg.__

   Material Submitted for the Record by Ms. Mary Dolan-Hogrefe, Vice 
   President and Senior Adviser, National Organization on Disability 
  (Member, US-Vietnam Dialogue Group on Agent Orange/Dioxin and also 
             Director of the World Committee on Disability)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Weidman FTR deg.__

   Material Submitted for the Record by Mr. Rick Weidman, Executive 
 Director for Policy & Government Affairs, Vietnam Veterans of America 
                                 (VVA)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
